<html>
<title> - THE HUMANITARIAN IMPACT OF EIGHT YEARS OF WAR IN SYRIA</title>
<body><pre>[Senate Hearing 116-134]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-134

                   THE HUMANITARIAN IMPACT OF EIGHT 
                         YEARS OF WAR IN SYRIA

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              MAY 1, 2019
                               __________


       Printed for the use of the Committee on Foreign Relations


                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                   Available via the World Wide Web:
                         http://www.govinfo.gov

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
39-599 PDF                 WASHINGTON : 2020 




                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        


                            C O N T E N T S

                              ----------                              
                                                                   Page

Risch, Hon. James E., U.S. Senator From Idaho....................     1
Menendez, Hon. Robert, U.S. Senator From New Jersey..............     3
Stiller, Ben, Goodwill Ambassador for UNHCR, The United Nations 
  Refugee Agency.................................................     5
    Prepared statement...........................................     8
Miliband, David, Right Hon., President and Chief Executive 
  Officer, International Rescue Committee........................    15
    Prepared statement...........................................    16

              Additional Material Submitted for the Record

Statement Submitted by Raed Al Saleh, Head of the Syrian Civil 
  Defense........................................................    43
Statement Submitted by David Lillie, Executive Director of the 
  Syrian-American Medical Society Foundation.....................    44

                             (iii)        

 
         THE HUMANITARIAN IMPACT OF EIGHT YEARS OF WAR IN SYRIA

                              ----------                              


                         WEDNESDAY, MAY 1, 2019

                               U.S. Senate,
                    Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:19 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. James Risch, 
chairman of the committee, presiding.
    Present: Senators Risch [presiding], Menendez, Paul, 
Cardin, Gardner, Shaheen, Romney, Murphy, Kaine, and Markey.

            OPENING STATEMENT OF HON. JAMES RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The committee will come to order.
    Thank you for our guests being here today to testify. This 
is a serious and important matter that we are going to take up 
this morning.
    And before we get started here, though, I would like to 
take a moment to remember our friend and colleague, a former 
chairman of this committee, Senator Dick Lugar, who passed away 
just a few days ago.
    Dick was a widely respected senator in his home state of 
Indiana, as he was around the globe. He was a lifelong public 
servant. He exemplified the ideals that many of us strive for 
every day.
    I was fortunate to serve alongside of him from my very 
first days in this committee. And I was able to benefit from 
his wisdom. At the top of the long list of his accomplishments 
is his work on nuclear nonproliferation in former Soviet 
countries. Our world is safer today because of his signature 
legislation, which was no easy feat.
    On behalf of all of us on the committee, I send my 
condolences to Senator Lugar's wife and his family, and the 
many people, who like us, were blessed to know and work with 
him. He was a true statesman and will always be remembered as 
such.
    Thank you, Dick, for your service.
    Turning to the topic at hand today, March tragically marked 
the eighth anniversary of a brutal civil conflict in Syria. A 
war characterized by the indiscriminate deployment of barrel 
bombs and chemical weapons against civilians. Mass murder, 
enforced displacement, targeted attacks against medical and 
humanitarian workers, and the wholesale destruction of critical 
infrastructure, directed by the brutal dictator, Bashar al-
Assad, and his Russian and Iranian enablers.
    The humanitarian and economic toll has been devastating. 
More than half-a-million people have been killed. Over 13 
million Syrians require urgent lifesaving assistance. Millions 
of men, women, and children have been forced from their homes, 
including 5.7 million refugees. And nearly 3 million Syrian 
children, including 800,000 child refugees, are out of school, 
and at least 10,000 of whom are unaccompanied, and all of whom 
are now vulnerable to trafficking, exploitation, and 
recruitment by armed groups, which we have all seen over the 
years.
    Notably, Assad's atrocities have also given rise to 
dangerous extremist groups, including ISIS, which have 
capitalized on the chaos, unleashed further death and 
destruction, committed acts of genocide. They have manipulated 
aid, and further destabilized an already fragile region.
    These are people, not just statistics, and they deserve 
better. These are men and women with families and children, the 
overwhelming majority of whom have been dragged into a conflict 
not of their own making; yet, are forced to pay the ultimate 
price.
    Unfortunately, there is no easy path forward for them. Of 
particular concern is the current situation in Rukban. Along 
the Syrian-Jordanian border, the Rukban camp houses 36,000 
Syrians, mostly women and children. In recent weeks, the Assad 
regime and its Russian backers have blocked access and 
repeatedly refused requests by the U.N. to deliver much needed 
humanitarian assistance.
    The last U.N. aid delivery was in February, and supplies of 
food and basic necessities have been exhausted. With Ramadan 
fast approaching, I urge the Assad Regime and its Russian 
backers to grant access to Rukban and beyond in line with U.S. 
Security Council Resolution 2449, thereby alleviating widescale 
humanitarian suffering.
    The regional implications of this crisis cannot be 
underestimated. The unrelenting flow of refugees into Turkey, 
Lebanon, and Jordan has overwhelmed economic and security 
institutions, and poses the risk of additional regional 
instability.
    And while it is easy to focus on conditions in the camps, 
it is important to note that roughly 90 percent of Syrian 
refugees live among hosting communities outside of camps. 
Refugees living in urban setting without access to legal 
employment or other assets face extreme difficulty in finding 
shelter and basic necessities. Moreover, they are often 
difficult to identify, and, therefore, difficult to assist by 
agencies that wish to do so.
    This situation is simply not sustainable. It is in the U.S. 
interest to help Syrian refugees realize their desire for safe 
and voluntary returns to their homes as quickly as possible.
    All of this has resulted in the bill that would authorize 
sanctions against the Assad regime and its backers, and hold 
these parties accountable for their human rights abuses and 
ongoing atrocities. This bill, the Caesar Syria Civilian 
Protection Act, I have worked on with Ranking Member Menendez 
and others, and both of us, indeed, many of us want this bill 
to be passed as soon as possible.
    It was included in S-1. The first bill passed by this 
Congress, but has become high centered over in the house. As a 
result, the Caesar bill will be taken up soon at a business 
meeting of this committee.
    The Syrian people need our help, and we should not delay 
this legislation any longer. The United States is the single 
largest humanitarian donor to the Syrian crisis, providing 9.5 
billion since the beginning of the conflict. Now the questions 
are how do we maintain the momentum of support for these 
populations, and what programs provide a path to durable 
solutions for the Syrian people. Such solutions will both 
address the grievances that perpetuated the conflict, and 
prevent sowing the seeds of future conflict.
    With Syria's complex and deadly war entering its ninth 
year, the United States and other partners continue to work to 
ameliorate humanitarian conditions while seeking a more 
permanent durable solution to the crisis. We remain committed 
to doing what we can to save lives, while acknowledging that 
humanitarian assistance is just a Band-Aid.
    A political solution is long overdue. The United States 
stands with the Syrian people. We are happy to have this 
hearing today, and we are happy to have the distinguished 
guests that we have to talk about it with us here today.
    With that, I will yield to Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Let me first join you in honoring the memory of the late 
Senator Dick Lugar. I was privileged to join the committee 
while he was, I believe, the chairman at the time. He was the 
ultimate statesman. At a time in which there is so much lack of 
bipartisanship he ran this committee with the comity, with the 
courtesy, with a respect for all views that we should emulate 
in our work today.
    At a time in which Russia is violating the INF treaty, and 
potentially leading us into a new nuclear arms race, it was 
Dick Lugar's work with Sam Nunn who made a difference in the 
world in terms of reeling us back from that arms race, and 
creating a safer, more secure world for generations to come.
    And so, I am better off having known Dick Lugar. I am 
reminded of his work, and I try to emulate some of what he does 
in the work that we do every day.
    I want to thank you, Mr. Chairman, for holding this hearing 
to highlight devastating ongoing human suffering inside of 
Syria. For more than 8 years the Assad regime has waged 
unrelenting war of brutality against the people of Syria, 
forcing millions to flee their homes, upending families and 
generations to come, destroying a once beautiful country, and 
enable terrorists and nefarious actors to gain stronger 
footholds across the region.
    I had hoped, Mr. Chairman, that we could hear from some 
Syrians directly today, but instead, let me at least 
acknowledge among us today members of the inspiring White 
Helmets, who to this day continue to risk their lives to save 
others, and to tell the story of Assad's murderous campaign.
    Raed Saleh is in town to receive a well-deserved award from 
the U.S. Holocaust Memorial Museum, and I ask that a statement 
from the group be submitted for the record.

    [The information referred to can be found at the end of the 
document:]

    Senator Menendez. And I thank them for being here today 
with us.
    While we may talk of the defeat of the Caliphate of ISIS, 
violence continues to rage in Syria's countryside and villages. 
Capitalizing on an incoherent policy from the United States, 
and fatigue from the international community, the Assad Regime 
and its Russian and Iranian facilitators at war crimes killed 
more than 100 people in February in Idlib alone. Nearly half of 
them were children.
    Facing Assad's barrel bombs and starvation campaign, as 
well as horrific violence from terrorist organizations, some 
6.2 million are displaced from their homes within the country, 
many lacking access to adequate food and basic healthcare.
    More than 2 million children are out of school, risking a 
lost generation. Five million have fled to neighboring Jordan, 
Lebanon, Turkey, and Iraq, who have shown an extraordinary 
openness.
    The impacts of this crisis, however, are not confined to 
the region. Nobody can forget the devastating images of dead 
Syrian children washing up on the shores of Greece, nor the 
hundreds who were drowned trying to cross the Mediterranean.
    While some governments have shown extraordinary compassion 
in welcoming the influx of refugees, this crisis has also 
fueled existing xenophobic and nationalistic voices seeking to 
upend the very foundational values and institutions that shaped 
the past half century.
    And as Syrians bear the burden, the Kremlin wins on two 
fronts. The refugee crisis contributes to the political 
splintering of Europe, and it is able to maintain a foothold in 
the Middle East to its war criminal patron in Damascus.
    During the past eight years of war, the international 
community has failed Syria, failed to resolve the conflict, 
protect civilians from gross violations of the Geneva 
Conventions, and the laws of armed conflict, and ensure durable 
solutions for refugees.
    Instead of the United States historical leadership and 
response to this kind of suffering, in 2018, President Trump 
froze and then terminated stabilization assistance in 
northeastern Syria, and announced a withdrawal of U.S. troops 
by Tweet, shocking both our local partners and deployed allies. 
Since then erratic policy pronouncements have created 
uncertainty about U.S. strategy, timeline, intentions, and 
reliability.
    Rather than providing resources to countries hosting Syrian 
refugees, President Trump's proposed budget, an unprecedented 
cut of over 30 percent in humanitarian aid, is something that 
luckily Congress rejected. But the proposal was reckless, 
dangerous, and a rejection of American values and global 
leadership.
    There are, however, steps we can take to address this 
crisis. At a minimum the Administration should work to ensure 
humanitarian access to men, women, and children in need, and to 
secure adequate funding for the humanitarian response.
    I am glad to hear in your comments, Mr. Chairman, that we 
will move the Caesar Civilian Protection Act soon as a 
standalone bill. I know Democrats stand ready to cast a vote 
for the bill and send it directly to the President's desk, as 
it has already passed the House of Representatives.
    And here at home we must lead by example. For decades the 
U.S. government was both an author and a champion of refugee 
protection and principles globally. Sadly, the Administration 
has slammed the door on Syrian refugees. In 2016, of the 5 
million around the world, the United States welcomed over 
12,587 of the most vulnerable Syrian refugees, women, children, 
the sick, and the elderly.
    In 2018, the Trump Administration barred the door, 
admitting just 62 Syrian refugees. Sixty-two. It appears the 
Administration is waging a deliberate campaign to send a 
message that the United States is no longer that shining beacon 
for those fleeing oppression, seeking asylum, and a better 
life.
    The United States has an ability to be a force for good and 
restore our international standing. We must stand by our 
partners, who have fought alongside us. We must push back 
against those who would seek to exploit a vacuum of leadership 
and threaten our interests. And doing that requires sustained 
support for the people of Syria and our allies.
    We thank our witnesses for the work that they have been 
doing, for their continued efforts to both expose the 
devastating crisis, and marshal support, and we look forward to 
your testimony.
    The Chairman. Thank you, Senator Menendez. I, too want to 
note that we have the two representatives of White Helmets here 
today. Their network of over 3,000 people have save almost 
100,000 lives, and it is to be noted and greatly appreciated. 
Their courageous work on the ground in Syria, while being 
targeted by Assad and its Russian backers, is to be commended. 
Thank you.
    [Applause.]
    The Chairman. Thank you, gentleman.
    Now we are going to turn to our witnesses. And I want to 
start with Mr. Ben Stiller, who is an actor, director, 
producer, and writer, with a career spanning over 30 years. Mr. 
Stiller is also a committed advocate and humanitarian 
supporting the work of UNHCR, the United Nations Refugee 
Agency, since 2016. Mr. Stiller was appointed Goodwill 
Ambassador in 2018, and has traveled around the world to meet 
with refugees. So, Mr. Stiller, we are honored to hear from 
you.

 STATEMENT OF BEN STILLER, GOODWILL AMBASSADOR FOR UNHCR, THE 
                 UNITED NATIONS REFUGEE AGENCY

    Mr. Stiller. Thank you. It is great to be here in person 
all of you. I watch you all on television all the time.
    [Laughter.]
    Mr. Stiller. You all look much taller in person.
    Ranking Member Menendez. We watch you at the movies.
    [Laughter.]
    Mr. Stiller. Thank you.
    Chairman Risch, Ranking Member Menendez, and members of the 
committee, I am pleased to be here today in my capacity as a 
Goodwill Ambassador for UNHCR, the U.N. Refugee Agency, to 
discuss the ongoing needs of Syrian refugees and their host 
communities.
    As you've noted, last month saw the eighth anniversary of 
the Syrian conflict. In 2016, deciding that I just did not want 
to just keep watching the news of the conflict, but that I 
wanted to do something, I called UNHCR, which is mandated to 
care for refugees worldwide.
    Since then I've had the opportunity to travel with them to 
meet Syrian refugees in Jordan, in Berlin, and recently, in 
Lebanon. I've also traveled to Guatemala to meet individuals 
fleeing horrific violence in our own hemisphere.
    In my time with UNHCR I've been incredibly impressed by 
their work. With a staff of nearly 17,000, 90 percent of whom 
are located in the field, UNHCR works tirelessly to assist the 
world's most vulnerable.
    Since the start of the Syrian crisis this committee has 
remained steadfast in its commitment to the protection and 
assistance of Syrian refugees, and internally displaced 
persons, as well as to the countries hosting these refugees. We 
thank you for that leadership and support. As an American I'm 
also proud that the United States continues to be UNHCR's 
largest donor, and that our State Department remains a 
steadfast partner.
    In many parts of the world the term refugee has 
unfortunately become politicized, despite the fact that 
refugees are real people, with real stories, stories that are 
some of the most frightening and traumatic I have heard, 
especially as a father. I have tried to imagine how I would 
feel if caught in the middle of conflict, and unable to protect 
my children, if my son was at risk of forced recruitment, or my 
daughter at risk of unimaginable violence.
    Honestly, for me, it is not something I want to think 
about. If any of us were to take a moment to really consider 
this, we would have a tiny sense of what everyday life is like 
for millions of people around the world. Getting a chance to 
meet some of these people and hear their stories firsthand has 
been a privilege. Immediately it becomes clear what we all have 
in common, that we come from different cultures and totally 
different worlds, we all want the same things, to provide a 
good environment for our kids to grow up in, to laugh, and 
share experiences with family an friends, to see our children 
grow up and achieve their dreams. These are things we all want 
no matter who or where we are.
    And every time I leave and say goodbye, I'm aware that but 
for being born in a different country, it could well be me, and 
not them sitting in a small, cold makeshift shelter, and not 
being able to do any of these things. These people have lost 
everything.
    This reality was all too clear last month when I was in 
Lebanon, and I had the opportunity to meet a young Syrian 
family. Binana, her husband Raed, and their four beautiful 
children. They've lived in Lebanon as refugees for 8 years now, 
and have desperately struggled, constantly moving, and 
constantly looking for work.
    Raed has resorted to trying to sell his kidney on Facebook, 
and last year when Binana was pregnant with her youngest child, 
a friend suggested she sell her baby to help make ends meet. 
Binana didn't do this, but the suggestion sheds light on the 
family's desperate circumstances.
    Their children, including amazing eight-year-old twins, 
Yazan, a boy, and Razan, a girl. These two kids are very 
special, and I was very affected by Yazan's courage. Just a 
very sweet boy. He overheard his parents talking about their 
struggles, and he offered to help by selling vegetables on the 
street for income for the family.
    And he is this very little kid. And his parents did not 
want him to work, but he insisted, telling them that it was 
better than begging. And his father Raed explained that Yazan 
is an excellent salesman. And so, I asked him, I said, ``What 
makes you such a good salesman?'' And he said he's good at 
selling because he's so cute.
    [Laughter.]
    Mr. Stiller. And while his response was funny, and it made 
me smile, the fact that he is working as a young child, missing 
out on school, and often going to bed hungry is a reality that 
is all too common for refugee children. And this family 
receives cash and assistance, food assistance, through UNHCR, 
but it just isn't enough for them.
    The overwhelming majority of Syrian refugees has always 
been and still remain in the countries bordering their 
homeland. And while these are mostly middle-income countries, 
the sheer size of the refugee population and the fragile nature 
of the region's economic and political situation puts an 
enormous strain on the hosting countries.
    The majority of Syrian refugees want to go home one day, 
but most don't believe that such return is possible right now. 
They fear for the security of their families as well as the 
prospect of military conscription, lack of documents, and lack 
of basic services, or just for their livelihoods there. In 
Lebanon I heard these exact concerns firsthand.
    UNHCR is working with partners to address these obstacles. 
When the time is right UNHCR will be there to support organized 
large-scale repatriation efforts as it has done in many parts 
of the world. Some self-organized returns are already 
happening. These families have made a highly personal decision 
to go home, and UNHCR respects and supports that decision.
    UNHCR is present at points of departure in host countries 
to ensure that returns are voluntary and to provide advice on 
documentation and other key issues. But in order to fully 
assist those who return and to monitor conditions, UNHCR and 
other humanitarian agencies need unhindered access to areas of 
return inside Syria. While access is slowly improving, it is 
far from being widespread or systemic.
    Because it is clear that large-scale return will take time, 
we should expect a significant Syrian refugee population 
outside of Syria for the foreseeable future. In the meantime, 
Syrian refugees have told us what they need, and we should 
listen to them. They need education for their children and the 
ability to work and provide for their families.
    They don't want to be dependent on aid, and to sit idly for 
years. Refugees have the potential to contribute to the 
economic and sociocultural lives of their new communities, 
whether those communities are in neighboring host countries and 
resettlement countries, or ultimately back in their home 
countries, where they can help to rebuild after years of 
conflict.
    We therefore need to provide the host countries with long-
term structural support. We need to help them ensure that their 
health services, education systems, and livelihood 
opportunities are available to refugees, and also that the 
needs of their own citizens are addressed, so that both groups 
are able to thrive.
    Done smartly, humanitarian aid and development aid, not 
only in the Middle East, but in Africa, Central America, and 
elsewhere, can help address root causes in countries of origin, 
provide needed support to transit and destination countries, 
and help stabilize fragile regions of the world.
    The United States has been the most generous donor to many 
humanitarian crises, including the Syria situation. And I urge 
you to maintain this generosity.
    Eight years into the crisis we must not look away. We 
cannot let Syrian families go deeper into destitution and 
cannot let their children be part of a lost generation. We need 
to ensure that these families can live in dignity and look to 
the future with hope. We need to ensure that these kids, like 
my kids and your kids, can have a childhood and achieve their 
dreams.
    Ultimately, we need to help create the conditions that will 
allow the majority of Syrian refugees to return home when the 
time is right, as they so desperately want to do.
    Thank you.
    [The prepared statement of Mr. Stiller follows:]

                   Prepared Statement of Ben Stiller

    Chairman Risch, Ranking Member Menendez, and members of the 
Committee, I am pleased to be here today in my capacity as a Goodwill 
Ambassador for UNHCR, the U.N. Refugee Agency, to discuss the ongoing 
needs of Syrian refugees and their host communities. As you're well 
aware, last month saw the eighth anniversary of the Syrian conflict. 
Like many others, I've seen news of the conflict on a regular basis. I 
watched the pictures of the refugee crisis in different parts of the 
world over the years. Then in 2016, inspired by seeing a fellow actor 
on the shores of a Greek island helping women, men and children who had 
made a treacherous journey across the Mediterranean, fleeing for their 
lives, I decided I didn't want to just keep watching. I wanted to do 
something.
    I called the U.N. refugee agency, which is mandated to care for 
refugees fleeing Syria and elsewhere across the globe, and I got 
involved. Since then, I've had the opportunity to travel to meet Syrian 
refugees in Jordan, in Berlin, and last month in Lebanon. I also 
travelled to Guatemala to meet individuals fleeing horrific violence in 
our own hemisphere.
    Both international and U.S. law define refugees as persons who are 
unable to return to their country due to a well-founded fear of 
persecution for reasons of race, religion, nationality, membership in a 
particular social group, or political opinion. While refugees are 
UNHCR's core constituency, the agency also works to protect and assist 
persons who have fled their homes but not their country; such persons 
are known as internally displaced persons (IDPs). Frankly, it is easy 
to read these definitions, gain an intellectual understanding, and move 
forward talking about refugees and displaced persons, and the 
statistics describing their situation, without any real understanding 
of who we are actually talking about. The term ``refugee'' in 
particular has become politicized in many places around the world, in 
spite of the fact that refugees are real people with real stories, 
stories that are some of the most frightening and traumatic I've heard, 
especially as a father. I have tried to imagine how I would feel if 
caught in the middle of conflict and unable to protect my children, if 
my son was at risk of forced recruitment, or my daughter at risk of 
unimaginable violence. Honestly, for me it is not something I want to 
think about. If any of us were to take a moment to really consider 
this, we would have a tiny sense of what everyday life is like for 
millions of people across the world. Getting a chance to meet some of 
these people and hear their stories first hand has been a privilege. 
Immediately, it becomes so clear what we all have in common, though we 
come from different cultures, and totally different worlds, we all want 
the same things: to provide a good environment for our kids to grow up 
in. To have the chance to live freely and do what we want in life. To 
laugh and share experiences with family and friends. To see our 
children grow up and achieve their dreams. These are things we all 
want, no matter who or where we are. And every time I leave and say 
goodbye to these people whom I'm lucky enough to spend some time with, 
I am aware that but for being born in a different country, it could 
well be me, and not them sitting in a small, cold make-shift shelter, 
not being able to do any of those things. These people have lost 
everything.
    In my time with UNHCR, I've been incredibly impressed by their 
work. With a staff of nearly 17,000, of whom 90 percent are located in 
deep field and often in hardship locations, UNHCR works tirelessly to 
assist the world's most vulnerable people. I've had the privilege of 
meeting many UNHCR staff members in the field and, time and again, I've 
been moved and inspired not only by their expertise but also by their 
unwavering commitment to the people they serve. Day in and day out, 
they are on the ground talking to refugees, gaining an understanding of 
who they are, and working to ensure that their most basic needs are 
met. There is nothing easy about this job, about aiming to support 
people who are on the brink of despair or who have suffered 
unimaginable trauma and loss. Given severe underfunding, there is 
nothing easy about making daily difficult choices, like which programs 
to downsize or which families won't receive thermal blankets during a 
cold, harsh winter. Even so, UNHCR staff leave me inspired. They stay 
the course and they manage to deliver positivity and hope in 
unparalleled fashion. Most of all they offer compassion.
    In the 8 years since the Syrian crisis began, international 
attention has often shifted to newer crises around the globe. Yet, this 
Committee has remained steadfast in its commitment to the protection 
and assistance of Syrian refugees and IDPs, as well as to the 
neighboring countries that are hosting the refugees. On behalf of all 
of my colleagues at UNHCR, we thank you for that leadership and 
support. As an American, I'm also proud that the United States 
continues to be UNHCR's largest donor and that our State Department 
remains a steadfast partner.
    Recent developments in Syria and across the region have begun to 
focus attention on the prospect for the return of Syrian refugees to 
their home country. I know that this Committee will work to help ensure 
the conditions that will allow for such returns, while at the same time 
continuing to meet the needs of uprooted Syrians and their generous 
hosts. I hope that my testimony today will contribute to this vital 
discussion.
                       global forced displacement
    I'd like to take a moment to put the Syrian crisis in the global 
context. Around the world today, global forced displacement is at the 
highest level in modern history. Nearly 70 million people are uprooted 
from their homes because of persecution or conflict. That's the 
population of California and Texas combined. Of those, more than 25 
million are refugees while more than 40 million are internally 
displaced. Another 3 million are seeking asylum.
    Syria continues to be the origin of the largest refugee population 
in the world, with 6.5 million Syrian refugees in over 125 countries. A 
large majority--over 5.6 million--live in the neighboring countries of 
Turkey, Lebanon, Jordan, Egypt, and Iraq. In addition, Syria is second 
only to Colombia in the number of IDPs, with 6.2 million Syrians 
uprooted from their homes but still inside their country. Other major 
refugee populations include Afghans, South Sudanese, Somalis, and the 
Rohingya and other minorities from Myanmar, while other large IDP 
groups include Congolese, Somalis, and Yemenis. Here in this region, 
people continue to leave Venezuela due to violence, insecurity, and 
lack of essential services. Over 3.4 million Venezuelans now live 
abroad, mainly in countries within South America, representing the 
largest exodus in the recent history of Latin America. In addition, 
about 325,000 refugees and asylum seekers have fled the northern 
Central American countries of El Salvador, Honduras, and Guatemala. 
UNHCR is working in Mexico and other neighboring host countries to 
enhance protection and assistance for these individuals, many of whom 
are women and children fleeing unspeakable violence at the hands of 
powerful transnational gangs. During my trip to Guatemala last year, I 
met women, children, and men who were literally running for their 
lives. The danger was so great that in our interviews we could not show 
their faces or identify them by name.
    The sheer numbers of the displaced and the growing complexity of 
humanitarian crises--which includes the protracted nature of conflict 
and the role of non-state actors--make our work and the work of our 
partners both more challenging and more needed than ever before. Thanks 
to the continued leadership and humanitarian diplomacy of the State 
Department, the strong bipartisan support from the U.S. Congress, and 
the American public's unwavering commitment to protect and assist the 
most vulnerable, UNHCR has been able to save lives, protect and assist 
those fleeing persecution, and help stabilize war-torn areas of the 
world.
                           the syrian crisis
    Last month, the Syrian crisis entered its ninth year. In that time, 
the conflict has reportedly killed about half a million people and has 
uprooted nearly half of Syria's population. Turkey, with 3.6 million 
Syrian refugees, is the largest refugee-hosting country in the world, 
while Lebanon--at one-third the size of Maryland--hosts between a 
million and 1.5 million Syrian refugees, making it the largest per-
capita refugee hosting country in the world. Another 660,000 Syrian 
refugees are in Jordan, 253,000 in Iraq--primarily the Kurdish region 
of northern Iraq--and 132,000 in Egypt.
    Although the world's attention was focused in 2015 on Syrians and 
other refugees who crossed the Mediterranean to reach Europe, and while 
a vigorous debate in this country has concerned the number of Syrians 
to admit as refugees, the reality is that the overwhelming majority of 
Syrian refugees have always been, and still remain, in the countries 
bordering their homeland. This is the situation for most of the world's 
refugees, who rarely cross more than one international border. For this 
reason, developing regions host more than 85 percent of the world's 
refugees, while the least developed countries host about one-third of 
the global total. Although the countries hosting the majority of Syrian 
refugees are middle-income countries, the sheer size of the refugee 
population and the fragile nature of the region's economic and 
political situation puts an enormous strain on these governments and 
their local communities. Let's remember that many of the countries 
hosting Syrians also host Palestinians, Iraqis, Afghans, and other 
refugee populations.
    In Jordan, I had the honor of meeting with King Abdullah and Queen 
Rania. They discussed the significant impact that the Syrian refugee 
population has had on their country, particularly their infrastructure. 
In Lebanon, the Syrians have strained not only the public services of 
that small country but also its delicate political and demographic 
balance. These and the other neighboring countries have all been and 
will continue to be generous hosts to the Syrians refugees, but clearly 
they need help if they are to keep the welcome mat out.
    In the past several months, in light of changing dynamics in Syria 
and across the region, the prospect of refugee returns has emerged 
prominently in discussions around the future of the country. However, 
discussions around returns must not be driven by politics. It's 
critical to consider the rights and interests of refugees first and 
foremost, and also whether the situation on the ground in Syria is 
conducive to return. As is the case in any displacement situation 
around the globe, UNHCR's position is that return of Syrian refugees or 
IDPs must be voluntary, safe, dignified, and sustainable.
    The majority of Syrian refugees tell us that they want to go home 1 
day. And those who made a free choice to return should be supported. 
However, at this point the majority of Syrian refugees don't foresee a 
return to Syria in the immediate future. They fear for the security of 
their families, as well as the prospect of military conscription, lack 
of necessary documents, and a lack of basic services or livelihoods. On 
my recent trip to Lebanon, I heard these exact concerns first-hand. 
Refugees say they want to return when the violence subsides, when 
guarantees are in place for their rights and safety, and when there is 
a political solution. And UNHCR is working to address the obstacles to 
return with the government of Syria and other stakeholders.
    Although UNHCR is not yet facilitating the large-scale return of 
Syrian refugees, we are aware that some self-organized returns are 
already happening. In 2018, at least 56,000 refugees returned to Syria 
from neighboring host countries. These Syrian families have made a 
highly personal decision to return to Syria, and UNHCR fully respects 
and supports that decision. While not yet promoting or facilitating 
such returns, UNHCR is present at points of departure in the host 
countries to ensure that such returns are voluntary and to provide 
advice on documentation and other key issues. UNHCR also provides 
returning Syrian refugees with humanitarian assistance, as it does for 
internally displaced persons, IDP returnees, and host communities. But 
in order to fully support those who return, as well as to monitor 
conditions in place for returnees, UNHCR and other humanitarian 
agencies need unhindered access to areas of return inside Syria. While 
access is slowly improving, it is far from being sufficiently 
widespread or systemic.
    When the time is right, when conditions allow for safe and 
sustainable return, UNHCR will indeed be there to support an organized, 
large-scale repatriation effort, as it has done in so many refugee 
situations around the world. In the meantime, the 5.6 million Syrian 
refugees in the region, and the countries that host them, need the 
continued support of the international community.
    During my recent trip to Lebanon, and my earlier trip to Jordan, I 
heard over and over from refugees about their desire to go home. 
Despite the aid that they receive from UNHCR--including access to legal 
services and civil status documentation, cash assistance, and emergency 
supplies--coupled with the generosity of host countries, many Syrian 
refugees are living on a knife edge. Making ends meet has become more 
difficult with every passing year of displacement. Until they can 
return home, life is a daily battle to prevent slipping deeper and 
deeper in to poverty and destitution.
    In Lebanon, there are no formal camps for Syrian refugees. While 
some Syrians live in informal settlements, the vast majority live 
outside these settlements in urban areas. Five out of ten Syrian 
households in Lebanon are living in extreme poverty--on less than $2.90 
per person per day.
    Any savings these refugees may have arrived with have been 
depleted, and limitations on their right to work and the ongoing 
discrimination they can face can make earning a living close to 
impossible. Until Syrians can return home, life is literally a daily 
battle to prevent slipping deeper and deeper in to poverty.
    This reality was all too clear last month when I was in Lebanon and 
had the opportunity to meet a young family who has faced the most 
immense struggles over the past 8 years. Binana and her husband Raed 
have four children and currently live in a small, unfinished building 
that is damp and cold with no real door or windows. Their children 
include beautiful and amazing 8-year-old twins, sister Razan who dreams 
of being a princess and a doctor, and brother Yazan who dreams of being 
a pilot but is already working as a vegetable seller on the street to 
support his family. Razan and Yazan were 4 months old when their 
parents fled Syria, due to the surrounding sounds of war, the shelling, 
and the imminent danger. It is worth noting that like most refugees, 
their life in Syria had been good. Raed worked as a taxi driver, and 
Binana took care of her family. They had what they needed for a nice, 
stable life. They have now been in Lebanon, living as refugees, for 
eight long years. Raed has had difficulty finding work, so they 
struggle to make ends meet and are in a great deal of debt. They have 
moved multiple times. They have lived in an old bakery, in something 
they describe as a birdcage, and also in a stable. Binana even gave 
birth to one of their younger children in the stable, where she 
described everything as being dirty and smelling of garbage. She also 
described a time when their space was flooded and covered with moths. 
It is hard to appreciate just how difficult these past 8 years have 
been, but the exhaustion and desperation of the parents are palpable. 
They have nothing, and they have lost almost all sense of hope. Raed 
resorted to trying to sell his kidney on Facebook, but Binana was 
against the idea. When Binana was pregnant with Rajaa, who is now 6 
months old, a friend suggested she sell her baby to help make ends 
meet. She of course did not do this, but the suggestion sheds light on 
the desperation of the family. There have been times when they've gone 
without even bread for 5 days straight. Binana told me, ``You have no 
idea how difficult it is when children ask for things we cannot give 
them. We have lost hope.'' Sometimes, in the evenings when the kids are 
hungry, she gathers them together and tells them to imagine and 
visualize what they would most like to eat. She tells them that when 
they go to bed they'll all dream this same dream. But when they wake 
up, they're still hungry. The strength and courage of Yazan, the twin 
boy, really affected me. He overheard his parents talking about their 
struggles, and at 8 years of age he intervened and offered to start 
selling vegetables. It was difficult for the father to even share this 
story, to acknowledge that his 8-year-old is helping to support the 
family. Raed and Binana did not want Yazan to work and initially said 
no. But Yazan insisted and told them it was better than begging. Raed 
proudly explained that Yazan is an excellent salesmen. I asked Yazan, 
who, by the way, cannot even reach the top of the vegetable cart, what 
makes him such a good salesman. With his wonderful smile, Yazan told me 
that he's good at selling because he's so cute. While his response was 
funny and made me smile, the fact that he is working as a young child 
and going to bed hungry is a reality all too common for refugee 
children. The family recently moved into their current home, so the 
children have not yet started their new school. Another reality for 
refugee children is that constant moving severely impacts the 
continuity of their education, if in fact they are able to attend 
school at all. Binana and Raed receive monthly cash assistance from 
UNHCR and food assistance from the World Food Program (WFP). They're 
surviving, but their day-to-day existence remains a struggle.
    In Lebanon, I also met a young Syrian refugee mother named Hanadi. 
She is just 21 years old and lives alone with her three children: 4-
year-old Hassan, 3-year-old Mayed, and 2-year-old Abed. Each of her 
children is more responsible than any child deserves to be, yet still 
inquisitive and curious. I remember little Hassan who was fascinated 
with the recording device our team took there. In that moment, he was 
just a kid with a toy. It was a small moment of levity during a 
difficult conversation. They have been living in an informal settlement 
in northern Lebanon for the past 3 years.
    Informal settlements are some of the poorest living conditions I've 
seen on my trips with UNHCR. Hanadi's particular space was clean with 
plastic sheeting for walls, mats on the floor and a separate, small but 
well organized kitchen. Just like you or I, she takes pride in her 
space, and the fact that she was tragically driven from her home hasn't 
changed that. I am always struck by the level of attention and care 
refugees give their make-shift and temporary spaces. Even her 
``kitchen'' area where she went through and showed me all of her 
cooking equipment and spices, right down to the tomato paste, was 
impressive. Hanadi fled Homs with her husband and family and sought 
safety in Lebanon in 2016. Her parents and in-laws remain in Syria, but 
she lost contact with them, and actually does not know whether they are 
even still alive. Her husband, realizing the challenges of life in 
Lebanon, went back to Syria in 2017. Hanadi has now lost contact with 
him as well. She last heard that he was detained by authorities but 
hasn't heard anything further. As the conflict carries on, this story 
of young mothers piecing together an existence in makeshift shelters 
that leak when it rains and are cold in the winter are all too common. 
To make ends meet and to afford food for her children, Hanadi works 2 
days a week in a greenhouse where she plants tomato and zucchini, 
leaving her children with neighbors. She earns $3 a day. She can barely 
keep up with her debts and her $50 monthly rent. She also has to pay 
for the generator subscription and water, as well as for doctors and 
medicine if her children fall ill. And make no mistake, her children do 
fall ill. This isn't a theoretical problem. Hanadi told us about a time 
when her 3-year-old was sick. She had to make the difficult decision 
between medicine and lights. The smile on the face of the little girl I 
saw beside Hanadi in their tent lets you know the choice she made. And 
these difficult financial choices are happening even with vital 
assistance from U.N. agencies. Hanadi receives cash assistance from 
UNHCR, which she uses to buy essentials for her children like diapers 
and clothes. She also receives the WFP food assistance. But given her 
other expenses and her debt, she can't always afford to have 
electricity or to heat her house. Hanadi says that she would love to 
return to Syria as soon as it goes back to normal, but security and 
stability are needed. Hanadi doesn't go out much--she doesn't feel free 
to move about alone as a woman and asks neighbors to get things for her 
family. Her main hope is to provide for her children. She wants them to 
be educated, and to live a different life than they're living now.
    In Jordan, which I visited in December 2016, approximately four out 
of five Syrian refugees live outside of camps in urban areas. As in 
Lebanon, their resources have diminished over time, and many refugees 
have become more vulnerable, risking exploitation to make ends meet. 
The majority of Syrians in Jordan live in rented accommodation that can 
cost two-thirds of their income, and the dwellings often suffer from 
poor ventilation and dampness. A UNHCR study revealed that 78 percent 
of Syrians in Jordan are living under the Jordanian poverty line. About 
36 percent of the school-aged Syrian refugee children in Jordan are out 
of school, despite the significant efforts to make sure that education 
is available to all children. While a number of innovative programs 
have reduced the out-of-school rate, it still remains too high. 
Obstacles to accessing education include overcrowding in some areas, 
the inability to pay for transportation or related fees, and often the 
need to send kids out to work to provide needed income.
    In fact, Syrian refugee families throughout the region often have 
no choice but to resort to harmful coping mechanisms such as child 
labor and early marriage in an effort to reduce financial pressure. 
They are also at risk of trafficking and exploitation. It's clear that 
children have been, and continue to be, among the most heavily affected 
by this crisis--losing out on education and other childhood 
opportunities. UNHCR regularly conducts needs assessments for urban 
refugee households to identify the most vulnerable and to support them 
where possible, within UNHCR's budget limitations.
    During my trip to Jordan, I met a young family who had recently 
begun resorting to the coping mechanisms mentioned above. Like so many 
others, Haitham and his wife Um Khalil fled Syria in 2013 thinking they 
would be away for only a short time. They had a fruitful life in Syria 
and left with savings from his work as a farmer. Three years later, 
when I was visiting, their savings were depleted and Haitham was unable 
to work due to a health condition. They had eight children and were 
expecting a ninth. Only one of their children was able to attend 
school, because, in spite of registering the others, overcrowding in 
the schools prevented them from attending. Money was a constant worry, 
so the eldest son, Khalil, only 13-years-old, went to work as a 
mechanic. He had worked the previous day from 7:00 a.m.--11:00 p.m., an 
astonishing 16 hours, and his work left his hands stained with engine 
grease. In spite of receiving UNHCR cash assistance, Khalil had no 
choice but to work as his family needed his income to help make ends 
meet. Taking that in, I turned to Khalil and said that was quite a 
responsibility for a boy. He listened to the translator then quickly 
and proudly replied, ``I'm a man, not a boy.'' The family was asked 
about applying for resettlement but rejected it, as they prefer to stay 
in Jordan with the hope that they can 1 day return to Syria.
    While UNHCR and its partners work within their means to ensure that 
all Syrian refugees have access to basic essentials of life, including 
services such as health and education, life remains a struggle. Even in 
the camps, where basic services are provided, life is difficult. In 
Jordan's Azraq camp for Syrian refugees, I met a young and vivacious 
couple, Mohamed and his wife Alaa. They have two children, 4-year-old 
Hussein and 2-year-old Sema, and had been in Jordan for less than a 
year at the time of my visit. In Syria, Mohamed studied to be a 
veterinarian and worked on a reserve. Alaa is an agricultural engineer; 
she studied plants and trees and worked as an environmentalist. 
Notably, she was one of the top 10 students in her class, and her 
ambition to achieve, to do great things and contribute to her community 
was as strong when I met her as it was when she was top of her class. 
However, having no opportunity to work was discouraging and a constant 
struggle for them both. It was difficult for them to maintain a sense 
of hope, when they had no idea what their prospects for the future 
might be. Alaa told me, ``We both have energy inside of us that we want 
to give to the world but don't have the chance.'' In addition to their 
own struggles, their children suffered from psychological issues due to 
the constant sound of bombings they heard in Syria. In spite of all of 
these challenges and obstacles, Mohamed and Alaa wanted to stay in 
Jordan, close to the home they fled. Above all, they wanted to return 
to Syria as soon as possible.
       a new approach to supporting refugees and host communities
    In the past couple of years, driven in large part by the Syrian 
crisis, the international community has begun pursuing a new approach--
a new way of working--with respect to protracted refugee situations. As 
refugees often spend decades in exile, with no solution in sight, it is 
critical to ensure that these years are not wasted and that 
opportunities for greater self-reliance are provided.
    Let me briefly highlight the key components of this approach. 
First, we must increase support to refugee-hosting countries--such as 
Jordan and Lebanon--in ways that will allow them to not only help 
refugees but also improve the well-being of their own citizens who have 
taken these refugees into their communities. Second, refugees in these 
host countries need more opportunities to go to school and earn a 
living, in order that they can become self-sufficient and contribute to 
their host communities; we cannot let entire generations be uneducated 
or waste their potential. Third, the international community needs to 
provide more opportunities for resettlement and other pathways of 
admission, such as work visas or scholarships for higher education. 
Refugees should not be forced to risk their lives trying to find 
opportunity elsewhere. Finally, we need to redouble our efforts to 
achieve the conditions that enable refugees to return voluntarily to 
their home countries. Refugees clearly need access to safety and 
refuge. But they also need to be included in the societies hosting them 
and have the chance to create a better future. Given the opportunity, 
refugees have the potential to contribute to the economies and the 
cultural and social lives of their new communities--whether those 
communities are in neighboring host countries, in western countries 
where they are resettled or where they work or study temporarily, or 
ultimately back in their home countries where they can help to rebuild 
after years of conflict.
    UNHCR and the wider humanitarian community, while providing support 
to refugees around the globe, cannot by itself address the longer-term 
needs of refugees and host countries. That is why this new approach 
involves key partnerships with development actors, international 
financial institutions, governments, and the private sector. Such 
assistance--both bilateral and multilateral--is critical not only in 
the Middle East but in many other corners of the world, including 
forgotten crises throughout Africa and in parts of this hemisphere such 
as Central America and the Venezuela region. Aid, done smartly, can 
transform countries of origin, transit, and destination. Through a 
coordinated and holistic response to the needs of the displaced and 
their hosting communities, we can achieve significant humanitarian and 
development objectives while also helping to stabilize fragile regions 
of the world.
    In the Syria region, this new approach is already bearing fruit. 
With access to World Bank funding and other development and bilateral 
aid, countries hosting refugees are able to address the long-term needs 
of their own populations while continuing to host refugees. And more 
humanitarian funding is now being channeled through national systems--
for health care, education, and other services--rather than creating 
parallel services. At the same time, host countries have been more 
willing to expand livelihoods opportunities for refugees. Turkey and 
Jordan, for example, have already provided more than 150,000 work 
permits for Syrian refugees according to their figures--which has 
benefited refugees, their hosting communities, and the local economy.
                              key messages
    Mr. Chairman, Ranking Member, and members of the Committee, I would 
like to leave you with three key points to keep in mind as the 
situation in Syria continues to evolve.
    First, we must enhance support for the Syrian refugees throughout 
the region. Syrian refugees have told us clearly what they want, which 
is what all of us want: hope for the future. They want education for 
their children and the ability to work and provide for their families. 
They don't want to be dependent on aid and to sit idly for years, 
wasting their time and their talents. They want to be agents of change 
in their own lives, and they are more than capable of doing so if we 
just give them the chance.
    Second, the neighboring countries that have so generously hosted 
Syrian refugees for 8 years continue to need our help. They urgently 
require more long-term structural support so that they can keep their 
doors open and keep hosting Syrians as well as other refugee 
populations. Much has been already achieved through the engagement of 
bilateral and multilateral actors in both the humanitarian and 
development arena, but more needs to be done. We need to help host 
countries ensure that health services, education, and livelihood 
opportunities are available to refugees and that the needs of their own 
citizens are also addressed, so that both groups--refugees and 
nationals--are able to thrive.
    Finally, we know that the majority of Syrian refugees want to go 
home 1 day. All refugees have a fundamental right to return. These 
returns need to be voluntary, safe, and sustainable in order to prevent 
another refugee outflow. The international community should do whatever 
it takes to depoliticize the issue of return and instead place refugee 
perspectives, rights, and interests at the center of discussions and 
decision-making. While self-organized returns are beginning to happen, 
and while more and more refugees will likely return as the situation 
evolves, it is clear that large-scale return will take time. This means 
that we should expect a significant Syrian refugee population outside 
Syria for the foreseeable future.
    The United States has been the most generous donor to many refugee 
crises and to the Syrian humanitarian situation, and I urge you to 
maintain this generosity and this leadership. Eight years into this 
crisis, we must not look away. We cannot let Syrian families go deeper 
into destitution and cannot let children be part of a lost generation. 
We need to ensure that these families can make ends meet, live in 
dignity, and look to the future with hope. We need to ensure that these 
kids--like my kids and your kids--can have a childhood and achieve 
their dreams. Ultimately, we need help create the conditions that will 
allow the majority of Syrian refugees to return home--when the time is 
right--as they so desperately want to do.
    Thank you.

    The Chairman. Thank you, Mr. Stiller. We appreciate your 
testimony in that regard. And thank you for your commitment to 
this cause.
    Next, we are going to turn to the Right Honorable David 
Miliband. Mr. Miliband is president and CEO of the 
International Rescue Committee, where he oversees the agencies 
humanitarian relief operations in more than 40 war-affected 
countries.
    From 2007 to 2010, he was the 74th Secretary of State for 
Foreign Affairs of the United Kingdom, driving advancements in 
human rights, and representing the United Kingdom throughout 
the world.
    Thank you for being with us today, Mr. Miliband. And the 
floor is yours.

STATEMENT OF THE RIGHT HONORABLE DAVID MILIBAND, PRESIDENT AND 
    CHIEF EXECUTIVE OFFICER, INTERNATIONAL RESCUE COMMITTEE

    Mr. Miliband. Thank you very much, Chairman Risch, Senator 
Menendez, distinguished senators. Thank you all for your 
leadership at this critical time in international affairs.
    I want to particularly applaud your determination to hold 
this hearing to look at the humanitarian consequences of the 
war in Syria, because our experience over the last 8 years is 
that far too often the danger that untended humanitarian crisis 
leads to geopolitical instability is not sufficiently 
appreciated. And the willingness of this committee to do so 
seems to me to be very important.
    I am conscious of the need to get on to the questions, so I 
won't repeat things that others have said. But let me make a 
few introductory remarks.
    I had the privilege of testifying before this committee in 
2015 and in 2017, when the inhumanity of the Syrian conflict 
was a major news story. Today, Syria is mainly out of the news, 
with the suffering of well over half of the Syrian population. 
The population numbered about 25 million in 2011. Well over 
half have been affected by the war.
    Their suffering has not abated. In the last 24 hours, 
bombing raids in the northwest of Syria by the government of 
Syria and Russian forces have caused death and destruction. I 
got in touch with our team on the ground this morning. They 
reported to me that today there have already been 50 air raids 
and attacks.
    We know that yesterday there were at least 20 aerial 
attacks, and in addition, 22 using barrel bombs. Our evidence 
is that three-and-a-half thousand have been displaced even in 
the last 36 hours.
    I want to pay tribute to Ben Stiller and our partners at 
UNHCR. But I also want to recognize the over 2,000 
International Rescue Committee staff on the ground in Syria, 
Jordan, Lebanon, and Iraq.
    In 2018, in significant part thanks to the aid that America 
was willing to provide, we were able to offer emergency aid and 
long-term services to one and a quarter million uprooted 
Syrians and their hosts in neighboring states.
    My testimony, my written testimony, focuses on four 
humanitarian priorities. First, the war that is continuing in 
two large chunks of Syrian territory in the northwest and in 
the northeast. You know well that the politics and the military 
balance in both areas is complex, but over 4 million people 
live in those areas.
    Cross-border aid keeps them alive, but the State Department 
yesterday described the situation of these people as dire. My 
written testimony gives details, including of those who used to 
live in Baghouz under ISIS rule and are now in the Al Hol Camp 
where we are working. It is a high priority to prevent 
humanitarian meltdown as the government of Syria and their 
Russian and Iranian allies seek to retake ground in the 
northwest and northeast of the country.
    Second, as all of the speakers have so far said, the 8 
years of war have taken their toll on the refugees in 
neighboring states. For too many of these people, life is a 
miserable existence. Poverty, early marriage, inadequate health 
and education are the norm. The host countries have their own 
challenges, and are delivering a global public good in 
providing sanctuary to these people. They need support, not lip 
service, to be able to continue to do so.
    Third, we hear from refugees that they are scared to return 
to Syria. Notably scared of conscription into the Assad army 
and of persecution. But also scared about the destruction 
that's been wrought on their homes and businesses. The primacy 
of the multilateral U.N.-led diplomatic process has been to a 
large extent displaced in the last 3 years by a Russia--Iran--
Turkey troika. However, a sustainable peace can only be built 
with full international as well as national engagement, and 
that takes sustained diplomatic muscle.
    Fourth, the most vulnerable refugees, abused women, victims 
of torture, those with medical conditions, depend for their 
future on resettlement to third countries. As Senator Menendez 
said, the U.S. has historically led the way. He rightly drew 
attention to the fact that in fiscal year 2016 only 62 Syrians 
were allowed in the country. The figure for this fiscal year so 
far is 250.
    I want to draw attention to the fact that albeit with 
reduced numbers the Administration has committed to admit about 
9,000 refugees for resettlement from the Middle East alone, but 
so far, nearly 7 months into the fiscal year, they have 
achieved less than 7 percent of that regional target. And it 
seems to me worthy of great attention to make sure that they do 
actually hit their own target in the course of the rest of this 
fiscal year.
    Mr. Chairman, Syria over the last 8 years has become a 
poster child for what I call an Age of Impunity, when the laws 
of war are considered optional, civilians are fair game, aid 
workers are seen as unfortunate collateral, and diplomacy is 
toothless.
    I thank you and the members of the United States Senate for 
the opportunity to provide the International Rescue Committee's 
perspective on this defining humanitarian challenge. I look 
forward to addressing your questions, and to an important 
conversation.
    Thank you very much, indeed.
    [The prepared statement of Mr. Miliband follows:]

              Prepared Statement of Rt Hon. David Miliband

    Chairman Risch, Ranking Member Menendez and distinguished Senators, 
thank you for your important decision to hold this full Committee 
hearing on the continuing humanitarian impact of the Syrian civil war. 
Since I last spoke to this Committee just over 2 years ago, battle 
lines have moved, Syrian territory has changed hands, ISIS, or Daesh, 
has been driven from its territory, and Syria has largely dropped off 
the front pages--but human suffering has been constant and in some ways 
growing. Last year 1.5 million Syrians were newly displaced by the 
fighting, including a period of civilian displacement at the beginning 
of 2018 higher than any other since the war began.
    Throughout the conflict humanitarian concerns have come too low 
down the priorities of key decision-makers, with devastating 
consequences for well over half the Syrian population. It is heartening 
that this Committee has not forgotten their plight and is ready to hear 
the arguments for urgent international leadership to ease the 
situation. That leadership needs to focus on four priorities: 
preventing humanitarian meltdown as the Assad government, with its 
Russian and Iranian allies, seeks to capture territory in the North 
West and North East currently out of its hands; promoting livelihoods, 
education and dignity for refugees in the neighboring States by 
renewing support for them and for the States hosting them; re-
establishing multilateral (UN-led) engagement with the parties to the 
conflict and the Syrian people to promote sustainable peace; and 
helping the most vulnerable refugees with resettlement to third 
countries, including the U.S.
    These priorities and my testimony are based on what my colleagues 
see on the ground. The International Rescue Committee operates across 
the arc of crisis--directly in the midst of conflict in Syria, in 
refugee hosting nations like Lebanon, Jordan and Iraq, on refugee 
transit routes like Serbia and Greece, and in 26 cities across the 
United States where we have assisted over 400,000 refugees to rebuild 
their lives since our founding by Albert Einstein in the 1930's. There 
are currently 2,190 dedicated IRC staff working in Syria and 
neighboring States. In 2018 we provided emergency aid and long-term 
services to 1.25 million uprooted Syrians and within the communities 
that host them--including 954,000 inside Syria. In total we have 
reached more than 5 million people in the region since 2012.
    None of this would be possible without the support of the 
international donor community, including the United States. For 
example, IRC's enduring partnership with USAID's Office of Foreign 
Disaster Assistance (OFDA) allowed us to provide lifesaving services to 
more than 300,000 conflict-affected men, women, and children across 
Syria and Iraq in Fiscal Year 8. In the region, the IRC has partnered 
with the U.S. Department of State's Bureau for Population, Refugees, 
and Migration (PRM) to reach millions of Syrian refugees. We are 
grateful for USAID and the State Department's continued commitment to 
assist Syrians in need, and their continued confidence in IRC's ability 
to provide effective and efficient programming that helps Syrians in 
Syria and the wider region to survive, recover, and gain control of 
their futures. We know that Congress has played an absolutely pivotal 
role in appropriating funds for these purposes, and on behalf of our 
clients we express our sincere gratitude. Independent assessments give 
us high confidence in the value and quality of these programs.
    More aid, better delivered, remains a pressing priority. But so 
does a surge of diplomacy that brings the needs of civilians to the 
forefront in the conduct of the war and the making of peace. The Syrian 
conflict has been a poster child for a new Age of Impunity, where war 
crimes go unpunished and the laws of war become optional. A recent 
report has revealed that chemical weapons, expressly forbidden by 
international law, were used over 330 times against civilians over the 
8 years of the conflict.
    There have been 355 attacks on hospitals during the war, including 
at least 13 bombings of IRC-supported hospitals in the country. Just 
last year, 102 people were killed in attacks on medical facilities. The 
number of attacks on hospitals in Syria has actually gone up since 2016 
when a U.N. Security Council resolution called for them to cease. These 
attacks on healthcare come at a time when civilians account for at 
least 85 percent of all war casualties.
    The statistics suggest a terrible new normal: civilians fair game, 
humanitarian aid workers unfortunate collateral, investigations and 
accountability an optional extra. Even the limited mechanisms that do 
exist for accountability in Syria, the Independent International 
Commission of Inquiry (COI) and the International Impartial and 
Independent Mechanism (IIIM) can merely bear witness to the violations, 
but cannot hold those responsible to account without the political will 
of U.N. Security Council.
    The U.S. Government, and Congress, therefore face important choices 
not just about humanitarian aid but also about diplomatic and military 
engagement. Our plea is to put civilian needs at the center of those 
decisions, in the name of humanitarian need but also in the interest of 
geopolitical stability in a vital region of the world.
                       the situation inside syria
    Since I last addressed the Committee, the Assad government has 
retaken control of large swathes of the country, and ISIS has been 
driven from its centers of power. However the conflict continues in 
significant parts of the country, and civilians pay the price, with 6.2 
million people currently internally displaced. Our priorities are to 
see the U.S. use its diplomatic muscle to prevent a resurgence of 
fighting with devastating impact, to increase and extend the impartial 
provision of humanitarian aid, including for those who suffered under 
ISIS rule, and to see the international system re-establish a 
multilateral basis for planning a sustainable future for Syria and its 
people.
    In Northwest Syria, in Idlib province, currently home to 2.7 
million Syrians, IRC has more than 300 people working to help people 
access vital healthcare, to protect vulnerable women and children, and 
promote economic livelihoods opportunities, while also responding to 
emergencies driven by the conflict. In this part of the country, an 
agreement between Turkey and Russia averted a humanitarian crisis by 
halting an impending military offensive last September. Since then, 
ongoing and increasing violence in areas of the so-called 
``demilitarized zone'' has undermined the fragile standoff. Shelling 
has risen steadily since November, with over 120,000 people displaced 
since February. While the Brussels Conference was underway earlier this 
spring, Russian airstrikes on March 14th killed 10 civilians and 
injured 45 others. At least 90 civilians were killed in March, half of 
them children. Two weeks ago, we saw the highest number of people 
killed in 1 week since this zone was agreed to. Just last week, one of 
our sister NGO's reported attacks on two schools they support and the 
deaths of three more children. In total, more than 200 civilians have 
been reportedly killed in Idlib since February, and we continue to fear 
a major offensive on the province. Estimates suggest as many as 800,000 
people could be displaced--two to three times the number of people who 
were displaced during fighting in Southern Syria in mid-2018.
    In Northeast Syria, more than 450 IRC staff work to provide 
healthcare, protection, and economic recovery and development across 
three governorates via cross border access from Iraq. This is clearly 
an area of high political tension, with Syrian, Kurdish, Turkish, 
Russian and US troops in close proximity, plus the remnants of ISIS. 
ISIS lost its last zone of territorial control in Syria on March 23. 
The brutal impact of its tactics and ideology have yet to be fully 
addressed, as have the grievances and disempowerment of local 
communities. In addition there are very difficult questions about how 
to identify former ISIS fighters, how to bring them to justice, and how 
to deal with their families, including large numbers of children.
    The aftermath of the fight against ISIS has led to a burgeoning 
humanitarian crisis. At al Hol Camp, catering to people previously 
living under ISIS rule in Baghouz and other parts of Deir-ez-Zour , the 
population has risen since December from 11,000 to more than 73,000 
people. Most of them have arrived highly vulnerable--with trauma, 
malnutrition and disease common. As of April 11, 249 people died on the 
journey to al Hol or soon after arriving at the camp. According to an 
analysis in March of the first 123 reported deaths, a quarter of those 
deaths were of newborns under 1 month old, two thirds of deaths were of 
babies under 1 year old, and 80 percent of deaths were children under 5 
years old.
    The population in al Hol is diverse. There are more than 30,000 
Syrians, 30,000 Iraqis, and more than 11,000 people with foreign 
citizenship across 30 countries. Of the camp population, 93 percent are 
women and children, 65 percent are children under 12. Most are in 
desperate need of basic services, education and psychosocial support to 
recover from the horrors they've experienced. These children are 
innocent victims of conflict and should not be held responsible for any 
crimes that may have been committed by their parents. But we also 
recognize the concern about the status and position of former ISIS 
fighters, and the need to address, and prevent, radicalization. We 
support the initiative of a number of countries, with U.S. support, to 
take back their own citizens, including children born under ISIS rule 
and call for other States to follow suit. We welcome the support the 
U.S. recently provided to Kosovo as it repatriated 110 of their 
citizens, mostly children and their mothers. In the education and 
health programs we run in Syria, we see what a difference mental health 
support and safe learning spaces for children can make even in a short 
time. The children we work with who get this support are less 
aggressive, less violent, and are more successful in school.
    The humanitarian crisis persists in and around Raqqa as well. When 
Raqqa City was retaken, IRC was the first organization to undertake 
emergency cash distributions for vulnerable households and treat more 
than 65,000 people through mobile medical units. Since that time, tens 
of thousands of people have returned to a city where their homes have 
been destroyed, water and electricity are scarce, and functioning 
health facilities and schools are few and far between. Raqqa is so 
heavily contaminated with mines and other unexploded ordnance that it 
could take years to fully clear the city so people can be safe. The 
city's infrastructure has been decimated, with major bridges vital to 
traffic and transportation of goods destroyed or unusable.
    In Rukban, an arid remote area in southern Syria near the northeast 
border of Jordan, some 40,000 people remain stranded, isolated from 
humanitarian aid deliveries that are rare and intermittent, in a 
desperate state without regular access to food and medical care. Rukban 
is an example of a place in Syria where it is not ``hard to reach'' 
civilians with humanitarian aid, but rather, where aid is regularly 
denied. Out of hunger and desperation, some people are beginning to 
take their chances by leaving Rukban. But although it appears that 
several thousand people left the enclave over the last few weeks, there 
have been concerning reports that some have been detained and even 
executed.
    Finally, it is important not to lose sight of the situation in 
areas that have been retaken by the Syrian government, such as Dara'a 
in southern Syria, where people are still struggling to recover. Before 
the government took control of this territory and the border crossings 
that served it, the IRC, with its network of Syrian partner 
organizations, was the largest health-care provider in southern Syria, 
supporting more than a quarter of a million Syrians. Now we are shut 
out, with no access to those people in need. Even before the government 
offensive to retake Southern Syria, the state of healthcare was dire: 
the area had 1,000 medical personnel in 2011, but just 150 in 2018. 
During the offensive, eight hospitals were hit by airstrikes. In March 
of this year, the U.N. reported that the majority of health facilities 
in Dara'a are either partially or completely destroyed and that there 
is a lack of health workers. The assurances from the Syrian government 
inspire little confidence in light of the conditions in other areas 
previously retaken by the State, such as Ghouta, east of Damascus.
    Given these unrelenting realities inside Syria, there is a pressing 
need for the United States and other donors to fund the humanitarian 
response plan (HRP) to ensure that resources keep pace with the needs--
yet only 65 percent of the $3.36 billion requested in the 2018 
Humanitarian Response Plan was met. Within this shortfall, several 
sectors have been woefully underfunded, including just 10 percent of 
the request for protection services and just 30 percent for early 
recovery and livelihoods. In 2019, the HRP is almost the same as in 
2018 at $3.32 billion--and needs to be fulfilled.
    The international community also needs to ensure that humanitarian 
assistance is delivered in a principled manner via the most direct 
routes. More than 4.5 million Syrians, many in acute need, are reliant 
on life-saving cross-border assistance authorized by U.N. Security 
Council Resolution 2449, which was last renewed in December 2018. 
Cross-border access to Northwest and Northeast Syria is critical to 
meeting needs in these parts of the country, and the international 
architecture that supports that aid delivery should be maintained. Our 
experience in Southwest Syria has demonstrated what happens when this 
cross-border access is shut down--lack of access to hundreds of 
thousands in need, fears for the safety of our clients and staff, and 
little to no information on what aid is being provided in our absence.
                    the strain in neighboring states
    The Committee will be aware that the Syrian humanitarian situation 
is part of a global trend: there are record numbers of refugees and 
displaced people around the world today. They are fleeing conflict and 
persecution that makes it unsafe to remain at home. This displacement 
is lasting longer than before--at least 10 years for the average 
refugee. Once refugees are displaced for at least 5 years, as is the 
case for most Syrian refugees, the average rises to 21 years. Eight 5 
percent of the world's 24.5 million refugees live in low and middle-
income countries, which already struggle to educate their populations 
and expand their economies. Just 10 countries, with 2.5 percent of 
global GDP, host over half the world's refugees. Syria's neighbors are 
all among these top 10, and the Syrian crisis epitomizes these 
challenges. However, the international community's humanitarian efforts 
have remained short-term in nature, rather than offering a coherent, 
strategic, multi-year effort to promote self-reliance and resilience 
amidst a protracted crisis.
    Syria's neighbors in the region, namely Lebanon, Jordan, Turkey, 
and Iraq, are hosting 5.6 million Syrian refugees. Lebanon has taken in 
1.5 million Syrians and Palestinian refugees from Syria, accounting for 
30 percent of Lebanon's population, at a time when one-third of the 
Lebanese population already live in poverty. The Syrian war has 
disrupted cross-border trade and deterred foreign tourists, and GDP 
growth that reached double figures almost a decade ago is set to fall 
to 1-1.5 percent this year. Jordan has taken in 650,000 registered 
refugees, straining the country's resources, especially scarce water 
and agricultural resources, at a time when the country is midway 
through an austerity program. And while Turkey has a greater size and 
economic capacity, it is host to 3.6 million refugees. These countries 
deserve significant support from the international community for the 
generosity they have shown Syrians fleeing violence and persecution 
even as they face their own domestic economic and social challenges.
    The pressure on refugees in the region is severe, and all signs 
indicate there is no immediate hope of returning home. Refugees tell us 
that they are scared to return and are not ready to do so. Less than 6 
percent believe they will return to Syria within the next year. 
Although the overwhelming majority hope to be able to return 1 day when 
it is safe and conditions are in place, just 19 percent think they will 
ever be able to return home. When asked what concerns they have related 
to returns, refugees cite the lack of security improvements, limited 
livelihood opportunities, lack of access to shelter, compulsory 
conscription and military service, limited access to basic services and 
education, fear of detention, and absence of a political solution.
    We have seen the power of effective aid combined with policy 
reforms to make a real difference in the lives of Syrian refugees. For 
example, Lebanon has instituted a second shift for Syrian children to 
attend school, and Jordan has opened up its health care system to 
refugees. In Lebanon, World Food Program cash-based interventions 
between 2012 and 2017 injected around $965 million into the Lebanese 
economy. In Jordan, revisions to work permit restrictions have allowed 
vulnerable Syrian refugees to register their home-based and micro 
businesses and through work permits in construction, agriculture and 
manufacturing without employer sponsorship given refugees more control 
over their lives. But overall this effort has not been sufficiently 
strategic or comprehensive.
    The economic situation for Syrian refugees in neighboring States 
remains precarious, which exacerbates challenges for the most 
vulnerable refugees: women and children. More than half of Syrian 
refugees in Lebanon are unable to meet the ``survival needs'' of food, 
health, and shelter. Fifty 8 percent of refugees in Lebanon live in 
extreme poverty, and many are falling deeper into debt without 
consistent financial resources to meet their needs. In Jordan, despite 
the commitments and good will of governments to make some work permits 
available to Syrian refugees, many refugees lack documentation or the 
means to pay the costs associated with obtaining a work permit, and 
while 139,000 of the target goal of 200,000 work permits have been 
issued, just 40,000 are in active use. As a result 85 percent of 
Syrians in Jordan remain below the poverty line.
    These impacts are felt hardest by women and children in these 
refugee communities. In conflict situations, there is often an increase 
in female-headed households and these are often the most impoverished 
as women face unique barriers to entering the work force. In Lebanon, 
93 percent of refugee women are not working, significantly higher than 
the 44 percent unemployment rate among refugee men. Even when 
governments take steps to bring refugees into the formal economy, women 
are often left behind. In Jordan, only around 4 percent of work permits 
have gone to women despite 22 percent of refugee households being 
headed by a woman.
    As poverty rates rise and refugee families remain excluded from the 
formal economy, child labor and marriage has become all too common. 
Forty 3 percent of the 1.7 million school-age Syrian refugee children 
were out-of-school in 2018, an increase from 34 percent in 2017. This 
is a particular challenge in Lebanon, where a recent IRC survey in 
Lebanon found that children as young as 6 years old were working, and 
79 percent of all working children surveyed were not accessing any form 
of education. Child marriage is another negative coping strategy for 
impoverished families. The percentage of married 15 to 19-year-old 
girls among Syrian refugees in Lebanon increased to 30 percent last 
year. Compared to the Middle East more broadly Syrian refugee girls 
face an increased risk of gender-based violence, higher rates of child 
marriage, and are more likely to drop out of school.
    The priorities in the neighboring States therefore fall into three 
categories: economic support to address poverty; expansion of education 
and protection services to help children, especially girls; and 
macroeconomic support for the neighboring States to contain tension 
arising from the challenge of hosting refugees for nearly a decade. The 
more this is addressed as a short-term issue, the less effective it 
will be. Acute humanitarian needs and medium-term development 
challenges need to be addressed together. The Committee could usefully 
engage with the continued evolution of the Regional Response Plan as a 
basis for intelligent accountability for donors and implementers and 
partnership with host governments.
    IRC has argued from the beginning of the Syrian civil war that the 
strain on the neighbors should not be seen only through the lens of 
short-term need. We were convinced this would be a protracted crisis 
that needed tools of development as well as humanitarian aid. We 
welcome the fact that the World Bank took important steps to change its 
financing models through the Jordan and Lebanon compact agreements. The 
Bank along with other donors used levers beyond aid, such as trade 
concessions, to incentivize host countries to reform their policies to 
allow refugees to work, move freely, and attend school. These are the 
types of changes we need to see in host countries in order to ensure a 
sustainable response, as well as enable refugees to become self-reliant 
and become net contributors to their local economies. While some of the 
initial experimentation has shown mixed results, the international 
community and international financial institutions should continue to 
innovate in their response. Even the small step of providing multi-year 
financing, rather than the short-term grants typically provided in 
humanitarian response, could have a big impact given the protracted 
nature of this crisis.
    The U.S. can be a voice for four steps to further improve on these 
approaches:
    Aid, trade, and other incentives for policy reform: International 
actors, including the U.S. Government, World Bank and other donors, 
should align their aid and ``beyond aid'' support, such as trade and 
other concessions, to enable host governments to make necessary policy 
reforms that open up pathways for refugee self-reliance. Restrictive 
policies are often one of most significant barriers that refugees face 
in being able to support themselves. Host governments often need the 
right international support to implement more progressive policies, 
such as allowing refugees freedom of movement, the right to work and 
the right to attend school. This is where the U.S. Government in 
particular could lean in with its diplomatic and financial weight to 
drive real, sustainable change.
    Define the right outcomes to identify the right solutions: Clear, 
measurable and context-specific outcomes will ensure that aid results 
in measurable improvements in refugee and host community lives. In 
Jordan, for example, a focus on jobs or increasing income levels--
versus work permits--may have directed planning to more cost-effective 
solutions. The same is true for Lebanon, where a focus on improved 
socio-emotional and academic learning outcomes for refugees would have 
led to a refined focus on addressing the traumas faced by refugees that 
can impact learning, rather than primarily focusing on enrollment 
numbers.
    Multi-year Financing: IRC has argued from the beginning of the 
Syrian conflict that the strain on the neighbors should not only be 
seen through the lens of short-term need. Our experience with conflict-
driven displacement globally convinced us this would be a protracted 
crisis that needed tools of development as well as humanitarian aid. We 
welcome the fact that the World Bank took important steps to implement 
longer-term financing models through the Jordan and Lebanon compact 
agreements. Multi-year financing allows implementing partners to plan 
and staff against longer time horizons, reducing administrative costs 
and enabling organizations to create programs that put people on a path 
to self-reliance rather than more dependence on aid--like educational 
attainment and reduced poverty levels.
    Refugee voices: It is vital systematically to include refugees and 
other affected populations when designing solutions. Early and periodic 
consultation, and inclusion in decision-making, are critical to making 
sure solutions defined by donors and the government meet the real needs 
of refugees and host communities. If refugees are left out of this 
process, there is a risk that solutions will not align with what 
refugees need nor help them overcome the barriers to self-reliance that 
they experience every day.
                            u.s. leadership
    The Syrian crisis has raised profound issues for geopolitics. The 
Committee will no doubt discuss how Russia, Iran and Turkey became the 
pivotal outside players in the course of the conflict, almost to the 
exclusion of other players, and what are the lessons. From the point of 
view of the IRC, the growth in stature of the Astana process at the 
expense of the UN-led political process which started in Geneva in 2012 
is a striking development. It carries considerable challenges for the 
future. Russia and Iran have filled the void, leaving Syrian civilians, 
humanitarian access, accountability for IHL violations, and civilian 
protection without effective champions.
    At my last appearance before this committee in 2017, I warned there 
could be no effective foreign policy without effective humanitarian 
policy and urged this Committee and the Senate more broadly to push 
back against the administration's proposed cuts to humanitarian 
assistance in its foreign aid budget. Since then, we have been grateful 
for the Senate's enduring commitment to the people of Syria and to 
humanitarian assistance more broadly as you pushed back against 
proposed cuts to humanitarian aid. I hope you will do the same this 
year. Global contributions to respond to the humanitarian crisis in the 
region are not keeping pace with the needs. In 2018 only 52 percent of 
the $5.61 billion requested in the Regional Response Plan (3RP) was 
met. The proportion of the 3RP that has been met by international 
donors has steadily declined every year since 2013, when 73 percent of 
the 3RP appeal was met. In 2019, the 3RP is almost the same as in 2018 
at $5.5 billion--and needs to be fulfilled. The United States has an 
important role to play as a donor in its own right as well as a 
catalyst for other donors to commit. Syria's neighbors need to be 
provided the necessary resources to shoulder the burdens of hosting 
millions of refugees, but also incentivized to reform how they treat 
them.
    Finally, U.S. leadership on Syria manifests itself in the 
resettlement of refugees, and in the lack thereof. In Fiscal Year 8, 
the United States resettled just 62 refugees from Syria, fewer than 
were killed in chemical gas attacks. So far in Fiscal Year the figure 
is 285. Nothing has changed about this population except their 
vulnerability. As we have demonstrated in this testimony, 8 years into 
the Syrian conflict, with all reserves depleted and with opportunities 
deeply constrained in countries of first refuge, the situation for 
Syrian families continues to worsen. The dramatic drop-off from the 
12,587 Syrian refugees the U.S. resettled in Fiscal Year is significant 
in and of itself, but also has contributed to a broader departure from 
international commitments by Western governments. In 2016, 25,000 of 
the most vulnerable refugees were resettled from Lebanon to third 
countries. In 2018, with the U.S. leading the retreat, just 8,500 were 
resettled globally. This is an unjustified rebuke to the generosity of 
countries like Lebanon and Jordan shouldering far more than their fair 
share.
    I encourage you to work toward reversing this trend and fulfilling 
the Administration's regional target of 9,000 refugees from the Near 
East and South Asia, which includes Syria, in Fiscal Year 9. Last year, 
the Administration failed to meet its own target, admitting just 22 
percent of the regional total and less than half of the global total of 
45,000 refugee admissions. The world's greatest superpower should not 
reject the world's most vulnerable in their greatest time of need. It 
is a symbolic show of solidarity with the neighboring countries, and a 
life-changing, lifesaving intervention for the individuals concerned.
    I thank you and the members of the U.S. Senate for the opportunity 
to provide the IRC's perspective on this defining humanitarian 
challenge. I look forward to addressing your questions.

    The Chairman. Thank you very much, Mr. Miliband, for your 
testimony. And also, thank you for your commitment to this 
cause.
    We are going to do a five-minute round. I am going to start 
with a single question to Mr. Miliband, if you would.
    USAID's Office of the Inspector General is charged with 
rooting out waste, fraud, and abuse in U.S. foreign assistance. 
According to the inspector general it appears even lifesaving 
humanitarian assistance to Syrians is not immune to corruption. 
I think the corruption issue around the world is largely 
unknown to Americans, but it is ubiquitous, as we all know the 
work around the world.
    Could you please discuss for a minute why it's so important 
to institute and enforce zero tolerance policies when it comes 
to corruption in humanitarian assistance?
    Mr. Miliband. Thanks very much, Mr. Chairman. I am glad you 
have raised that. I think there are three reasons that I would 
cite.
    The first is it is absolutely vital to maintain the 
confidence of taxpayers that their international aid is going 
to the people who need it, not being diverted to people who 
want to profit from it. And I know from my own experience in 
political life that it is absolutely essential to ensure the 
principles of value for money, of cost effectiveness, as well 
as cost efficiency are built in from the beginning in the way 
programs are organized and delivered.
    Secondly, I am a very strong believer that it is important 
to have a culture of zero tolerance, because that means you are 
preventing fraud as well as taking defensive measures to 
investigate and tackle it. We, for ourselves, but I know that 
other NGOs do the same, do extensive risk analysis to make sure 
that we are working in ways that protect taxpayers' money.
    We are vigilant in following through where aid reaches. And 
perhaps of most interest to the committee, we use the views of 
beneficiaries themselves as an early warning system when things 
are going wrong. Because of course, the first people to know 
that the aid isn't going where it needs to is from people who 
are meant to be getting it. That seems to me to be essential.
    The third element of this that I think is very important, 
indeed, is obviously to ensure that the NGO community, with the 
multilateral agencies and the donors work in an efficient and 
effective way to tackle that fraud and abuse. One element of 
this is that NGOs have to fund this for themselves. We don't 
really get funded by our multilateral donors to be able to do 
this. And I can speak for my own organization. We are now 
having to invest significant sums of money that we raise 
ourselves to ensure that we meet the higher standards, always 
vigilant that in our recruitment and our practices we are able 
to meet the higher standards.
    The Chairman. Thank you so much. I appreciate that answer.
    Senator Menendez?
    . Thank you both for your testimony and your commitment. 
Mr. Miliband, you present a disturbing, rather gloomy picture, 
one which not only do I believe we have a situation where we 
can lose a generation of Syrians, but we will buy ourselves in 
the international community a generation of problems, problems 
that will go to unsettling what is happening in Europe, 
problems that lead to people who are despaired, who will then 
be turned and proselytized to fights that we are presently 
having against terrorism.
    This calls for our response not only in a humanitarian 
context, but in our own national interest and in our own 
national security interest.
    Let me ask you, the international community sends much of 
its humanitarian aid from Turkey and other frontline states to 
vulnerable citizens inside Syria. Last year, the U.N. Security 
Council authorized only a one-year extension of cross-border 
aid deliveries to Syria. If humanitarian organizations lose 
cross-border access and are only able to program for Damascus, 
how is that going to affect the Syrian humanitarian response?
    Mr. Miliband. Thanks very much for the question.
    I think the most chilling statistic that I saw in preparing 
for this hearing was that when it comes to cross-line aid, that 
means aid that is going from a government of Syria-controlled 
part of the country into a rebel-held part of the country, only 
three percent of aid agencies' applications to do that cross-
line aid are accepted.
    That gives you an indication of the priority for cross-
border aid that is going from Turkey, or from Iraq, or from 
Jordan to reach people in need. The U.N. figures are that about 
3 million people depend on that cross-border aid. And we know 
from our own staff who are in areas that were previously under 
rebel-held control, where we were delivering cross-border aid, 
I am thinking particularly about the southwest of the country, 
Daraa, where the Syrian Civil War started, and where we were 
the main healthcare provider.
    Now that the Syrian government has taken over, those 
services have been lost. And so, you are immediately seeing 
that for the people in the northwest and the northeast of the 
country, still in rebel-held areas, cross-border aid is 
literally a lifeline. Three million people in total depend on 
cross-border aid, and they depend on a multilateral 
coordination mechanism through the United Nations as a Syria 
response plan and a regional response plan covering the 
neighbors that is delivered in a coordinated and organized way. 
So cross-border aid is a lifeline.
    Senator Menendez. And obviously, in the absence of cross-
border aid it increases the Assad Regime's ability to leverage 
assistance only to the areas where supporters of the regime 
reside. Is that a fair statement?
    Mr. Miliband. Yes. I think the experience in Ghouta as well 
as in southwestern Daraa bears that out.
    Senator Menendez. Let me ask you what message does the 
Administration slashing of refugee admissions to 30,000 this 
year send to countries such as Jordan, Lebanon, Turkey, who are 
already hosting millions of Syrian refugees? I worry that when 
we lead by example, we can get other countries and urge other 
countries to perform their fair share. But when we fail to do 
so, we lose the ability to advocate for others to do so.
    And in the case of Syrian refugees, they are the most 
vetted of anyone who comes to the United States. They go 
through the most vigorous background checks of anyone who comes 
to the United States. And we take only among the most 
vulnerable women, children, those who are highly infirmed.
    And so, it seems to me that we need to be the leader in 
order to get other nations in the world to continue to join in 
the responsibility. What do you think is the effect of that?
    Mr. Miliband. I think the best way of answering that is to 
say the last time I was in Jordan I was told by a very senior 
member of the Jordanian government that there was a very clear 
message, which is that they felt like they were ``on their 
own.'' And that is the danger that I see in this.
    We know that in 2016, when the then Administration raised 
the number of refugees who were being allowed to come into the 
country, other countries around the world increased their 
refugee resettlement commitments by about 100 percent. And so, 
you saw for the first time an uptick in the number of refugee 
resettlement commitments around the world.
    The parallel, or the concomitant is that when the U.S., as 
the global leader in refugee resettlement, reduces its numbers, 
that also acts as a disincentive around the world.
    There's a final point I just want to make, I think you are 
absolutely right to stress the need for effective security 
vetting. I have been in this job for 5 years, and I am the 
first to say we want there to be effective security vetting of 
everyone coming into the country. You are right that it is 
tougher to arrive in the United States as a refugee than 
through any other route.
    The Administration was perfectly within its rights when it 
came in and said it wanted to review the vetting system. And it 
now has a vetting system that it says is up to scratch. And so, 
I think in those circumstances there is no reason why the most 
vulnerable should not be allowed in in numbers that are on a 
par with the kind of global scale of the problem that we face.
    Senator Menendez. Thank you very much.
    The Chairman. Senator Paul.
    Senator Paul. Thank you both for your work and trying to 
help this terrible humanitarian disaster.
    I think when we look at it, it is easy just to talk about 
what we should do to help the refugees, but we also should 
think about what caused this to begin with. Worldwide it's 
either a natural disaster, you know, lack of food, lack of 
water, or war. More often than not it is both. Both war and, 
you know, naturally difficult land to harvest crops from.
    But if we don't understand that war causes refugee crisis 
and war causes humanitarian crisis, we are not getting 
anywhere. And there really does need to be a discussion of how 
did we get here. To me, there is a certain degree of irony that 
we, and our allies, and Qatar, and Saudi Arabia, and UAE, we 
sent tons, thousands of tons of weapons into Syria.
    And then after the aftermath of all of these weapons coming 
together in this clash of civil war, now we are going to be 
asked for the humanitarian disaster as well. Maybe we should 
try to have, you know, less involvement in these civil wars, 
less escalation of these civil wars.
    ISIS. We had to go back in and fight ISIS. Where did ISIS 
come from? The chaos of this civil war, you know. Terrorism 
breeds in chaos. And so maybe really need to rethink when we 
get involved in these civil wars, and whether our involvement 
is good or bad.
    People say, ``Well, if we wouldn't have gotten involved, 
Assad would have won the war.'' Yeah, he probably would have 
won the war in the first six months. Would there have been 
oppression? Yes, there would have been oppression. But do you 
think that's worse somehow than the millions of people that are 
displaced, and the hundreds of thousands of people that have 
been killed in this. And these are things we should think 
through.
    My question to Mr. Stiller is, you said that you require--
in order to meet the humanitarian needs you required unhindered 
access. Do you think more sanctions on Syria will lead to less 
hindered access, or do you think more sanctions might actually 
lead to more hindered access to develop humanitarian aid?
    Mr. Stiller. I won't venture to speculate on sanctions in 
my role as a witness to the humanitarian plight that I have 
seen for UNHCR.
    Senator Paul. Right.
    Mr. Stiller. I think it is obviously an incredibly 
complicated political situation. And what I would speak to at 
the UNHCR and to what International Rescue Committee is doing 
is it is about figuring out the best way to have access within 
Syria to allow a path for these people to go home, to have a 
safe place for them to go back home. So, it is a very 
complicated issue.
    Senator Paul. Right.
    Mr. Stiller. I don't do it for a living. But I would say 
that it is--when you see the fact of it in person, and I agree 
with you, these root causes have to be addressed. I think that 
is the key. But when you see the face of it in person and what 
is going on there now, I think it is just very important that 
we do everything we can to help.
    Senator Paul. And I think the thing is, is that some see 
sanctions as war by another name. It is a softer form of war, 
but it is a war that goes on. It is not acknowledging that 
basically the war is over, and that somehow the tide is going 
to change, and Assad will be defeated by sanctions.
    Now I don't think he will be defeated by sanctions. I think 
the humanitarian crisis continues and actually probably grows 
from not sending aid in and putting sanctions on people who 
would send aid in. So, I think we really do need to rethink 
this.
    Sanctions is not going to change the outcome of the war in 
there, but I think it will change the ability for the country 
to recover. You know, I am no fan of Assad. I am not glad that 
he won the war, but the war is largely over. There still are 
pockets of resistance in different places, but the war is 
largely over. And if want to correct the humanitarian crisis, 
forbidding trade with Syria is probably not a good way.
    Embargoes lead to starvation, you know. There was an 
embargo on Japan before the war, embargoes on Germany. They 
didn't prevent the war. They actually may have brought the war 
on as well.
    So, I think we ought to rethink what we're doing as far as 
how we treat this. There is one thing to give money and to feed 
people, and that is admirable, but it is another to continue 
the war and think that somehow we are going to change the 
outcome.
    That is all I have. Thanks.
    The Chairman. Thank you, Senator. Senator Cardin?
    Senator Cardin. Well, let me thank first both of our 
witnesses. Mr. Stiller, you are a face that can get significant 
support in this country and around the world on these issues. 
So, I thank you for taking your time for this extremely 
important humanitarian need. And Mr. Miliband, your reputation 
and your leadership has been indispensable.
    Let me just respond very quickly to Senator Paul. For the 
people of Syria, whether you call it a war or not, there is not 
peace. And the circumstances on the ground are extremely 
dangerous for the population in Syria.
    And we can talk about all the different problems we have, 
including a final resolution for a government that represents 
all the people of Syria, which is desperately needed. We can 
also talk about the need for access for humanitarian 
assistance, which is what this hearing is about, and how we 
deal with refugees.
    But yesterday I attended a--or Monday I attended a meeting 
of the U.S. Holocaust Memorial Museum. The White Helmets were 
honored the night before, and we congratulate you. It is an 
incredible inspiration to all of us, the work that you do. But 
there is an exhibit there on Syria, the 8 years of atrocities, 
and I encourage as many of our colleagues to see that exhibit, 
if they can. Because what the museum about is ``Never Again.'' 
It is a memorial to the victims, but it is also our commitment 
of never again. And we are seeing it over and over again.
    So, Mr. Miliband, you mentioned the point--your final 
summary was pretty sobering. And I think you will find many of 
us that agree with you, the failure is in so many different 
areas. But let me just mention one of the issues you mentioned, 
impunity in Syria. If it is never again, those who committed 
these atrocities have to be held accountable.
    We included, working with Senator Rubio, legislation I 
authored dealing with the Syrian war crimes accountability. It 
was the law of our land. Now this Administration has defunded 
that effort in the budget. But if we don't hold accountable 
those who commit atrocities, we are going to see this movie 
again. We have to take steps to make sure that does not happen.
    And I know this hearing is focused on the humanitarian 
needs, but I would just urge us all to recognize that we have a 
responsibility to humanity, that those who are responsible for 
these atrocities are held accountable.
    I want to drill down a little bit on the point that Senator 
Menendez mentioned about U.S. leadership. Because U.S. 
leadership is so vitally important, and you had a chance to 
comment in regards to the Syrian refugee numbers here in the 
United States.
    But it goes beyond that. Take a look at the 
Administration's budgets on humanitarian aid, and cutting aid 
in so many of those areas. Look at our immigration policies 
generally. Look at the rise globally of nationalism, anti-
migrants, so that when we look at the politics within the 
region of Syria it's becoming more and more challenging for the 
neighboring countries to accept and maintain their commitment 
to refugees because of the politics, global politics of 
refugees.
    So, Miliband, I just want to give you another opportunity 
to--this committee has historically taken a very strong 
position for the U.S. leadership on dealing with vulnerable 
populations. And we are concerned that the U.S. leadership is 
not where it needs to be today as we ask other countries to do 
things, and keep borders open with Syria, and maintain refugee 
camps, and allow humanitarian aid, which is a real burden to 
their own political stability in their own country. Where we 
need to be, the Western powers, to show by example.
    Yes, the refugee numbers are critically important, and our 
numbers, to be so far behind, a very, very modest number, when 
you look at the numbers of surrounding countries of Syria, and 
the numbers that they have, and the percentage of their 
population, we need to show leadership.
    So, I'll just give you an opportunity to respond to that as 
to how this is affecting your ability to carry out your 
mission.
    Mr. Miliband. Well, thank you very much. I think the Age of 
Impunity that I referred to is driven by two things. One is a 
crisis of diplomacy. And to speak to Senator Paul's very 
important point, the roots of these refugee crises are in civil 
wars. And the tools of diplomacy for wars between states are 
not well suited to the crises that exist within states. And so, 
the tools of diplomacy have to be reinvented for a civil war 
situation rather than an interstate conflict.
    Secondly, though, the crisis of accountability that you 
referred to speaks directly to the fact that essentially war 
crimes, and in many cases, literally war crimes, are not 
investigated. And that is the absolute foundation for this. We 
all know that the U.N. Security Council is being blocked from 
effective investigation of crimes inside Syria. It has been 
left to NGOs, some of them based in Germany, actually, who have 
done an outstanding job in highlighting particular individuals 
who have been the focus of this.
    The U.S. has shown leadership in respect to the Magnitsky 
Act in a different context, where it has targeted particular 
individuals. And I think that from my own experience, but also 
from what I see now around the world, U.S. leadership provides 
leverage. When you give more aid, you're then in a stronger 
position to say to the Gulf countries they have to step up. 
When you expand your refugee resettlement numbers you are in a 
better position to say to the European Union, ``You have to 
step up as well.''
    And then perhaps to tread into more difficult territory. 
When the U.S. embraces the notion that civilian casualties need 
proper independent investigation, it also sends a very 
important message about what we really mean by accountable 
government and by liberal democratic principles.
    And it seems to me that is the message that goes out, that 
when you set an example, you get leverage. And I think that is 
what we see. And when that example is not set, I am afraid it 
incentivizes the worst of behavior rather than the best.
    Senator Cardin. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman. Thank you to both 
of you for your time and testimony today. Mr. Miliband, thank 
you for the work that you do through IRC. We met with some 
individuals from the office in Denver. Thank you very much for 
the work, and certainly the work that takes place in Colorado 
as well.
    I was here, and I believe it may have been the 2015 hearing 
that you testified to this committee for. You talked at the 
time about the internally displaced, not just in Syria, but 
throughout the region. You talked at the time about the overall 
global refugee situation being greater than any point since, I 
believe at that time it was World War II.
    Could you talk perhaps today in this context, in 2019, what 
is different about the refugee situation either in Syria 
specifically or globally than it was in 2015, and how that 
difference has occurred.
    Mr. Miliband. Thank you very much, Senator. I hope I can 
say that the fact that you went to meet refugees who had been 
resettled in Colorado and Denver sends an incredibly important 
message. And I think it was a message of humanity that really 
resonated. So, on behalf of my team I really want to thank you.
    Directly, I think three things have changed. First of all, 
there are more refugees and internally displaced than there 
were in 2015. We are now up to 68.5 million in total, 28-and-a-
half million refugees and asylum seekers who have crossed 
borders. Forty million internally displaced.
    Secondly, the political context in which many of them find 
themselves has become more complicated. In 2015, we were not 
talking about 800,000 people under the rule of Boko Haram in 
northeast Nigeria. We were not talking about so-called HTS, the 
Al Qaeda affiliate in the northwest of Syria. So, the localized 
politics and the danger of radicalization I think has become 
greater.
    Thirdly, the refugee situation has expanded geographically. 
Just to speak for our own agency, we have had to deploy to 
Bangladesh because 700,000 Rohingya Muslims were driven out of 
Myanmar. We have had to deploy into Colombia because of the 
very significant number of displaced people coming out of 
Venezuela. So that is the third aspect of this, the 
geographical spread has grown, too.
    Senator Gardner. Thank you. And to either one of you. Mr. 
Stiller, perhaps you talked about going to Jordan and visiting 
refugees in Jordan. I think we all share a very similar 
experience when you traveled through Amman, and the people you 
travel with point out which settlement or location occurred 
during which conflict, and you can say refugees from this era, 
and that era, and the challenge they face, and the education 
challenges they face.
    And then, of course, you talk to somebody in Jordan, and 
they talk about how this market here used to be a Jordanian 
market, but this group of refugees has now displaced the local 
business people, and have now taken over that. And now there 
are Jordanians, or whatever country it is, that are out of 
work. And so, the conflict that creates within the country can 
be immense, from an education standpoint, from a resource 
standpoint, from just people who feel that perhaps they were 
displaced from work that they were doing prior to that because 
of a refugee policy.
    Can you talk about what you saw in Jordan and what you see, 
and how we can better adjust our policies to impact education 
resource needs?
    Mr. Stiller. Yes. Thank you for the question.
    Yeah. I've seen that, too. The reality of this huge influx 
of refugees coming into these very small countries, neighboring 
Syria and Iraq, Jordan, such a small population. And the 
percentage per capita of refugees coming in is huge. And it 
just overwhelms their infrastructure and their ability to 
provide for them.
    And at the same time, refugees in these countries really do 
not have many rights, and the ability to work freely. And it is 
different in different countries. But I think one of the things 
that I saw were children being forced to work because their 
parents couldn't work. When I was in Jordan, I went to the 
Azraq camp, which is a huge camp where I think 30,000 or 40,000 
refugees are, where they have no ability to work at all. So, 
they just have to form a community and be able to try to be 
productive as they wait for their lives to continue.
    And then the vast majority that are outside the camps are 
trying to make ends meet, and a lot of the times the parents 
can't work. So, I met a child named Khalil who was 13 years 
old, one of, I think 6 or 7 kids in a family. They had come 
from Aleppo, and they had been there for about 3 or 4 years. 
And his father could not work due to medical issues.
    So, this boy, Khalil, similar to the boy I was talking 
about, Yazan, had to work at an auto body shop for about 12 to 
14 hours a day. He is 13 years old. And very war-weary face, I 
would say. Beautiful green eyes. I remember him very well. And 
I said to him, ``Boy, you work very hard for a young boy.'' He 
said, ``I am not a boy. I am a man.''
    Senator Gardner. Hmm.
    Mr. Stiller. I think that is the reality. He is missing out 
on his education. It is a whole generation of young Syrians who 
are not having any access to education. And the host countries 
are overwhelmed.
    I had a chance to meet the king and the queen in Jordan 
when I was there, and they talked about the huge pull it has on 
their infrastructure. So, I think it is very important to be 
able to help these host countries so that they can provide for 
their own citizens, and provide for the influx of refugees.
    Senator Gardner. Very good. Thank you. Thank you, Mr. 
Chairman.
    The Chairman. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman, and thank you 
both very much for being here today, and for what you are doing 
to try and address what is a horrific crisis that the world has 
not paid enough attention to.
    Mr. Miliband, last summer I had the opportunity to travel 
in northeast Syria. Senator Graham and I spent a day there, and 
we were in Manbij Village. What we saw was a largely stable 
area where refugees were coming back. ISIS had been defeated. 
Our troops there had made a huge difference in providing 
reassurance to the people of that part of Syria, that they were 
not going to see a resurgence of ISIS or other forces that 
would harm them. Sadly, later in the year we saw the President 
tweet, and the situation changed in northeast Syria.
    Can you talk about how important it is for U.S. presence in 
that part of Syria, especially given, as you point out, the 
deteriorating multilateral negotiation situation, where talks 
have not moved forward? And as we look at the presence of Iran 
and Russia, and what happens next, how important it is for the 
United States, and giving us the leverage that you talk about.
    Mr. Miliband. Thanks very much. I mean obviously we are a 
humanitarian organization, and we are careful about the 
boundaries between humanitarian policy and----
    Senator Shaheen. Right.
    Mr. Miliband.--military policy. What I can report to you is 
that in our judgment there is no question that the U.S. 
presence is a force for stability in that part of Syria. I can 
report that to you as an evidential point rather than an 
opinion of military----
    Senator Shaheen. Sure.
    Mr. Miliband.--strategy. It is a precarious situation 
because you have the government of Syria, you have the Turks 
from the north, you have the danger of a resurgence of ISIS, 
you have Russians, who encroach there and met their American 
match last year. And our plea is that every single political 
and military decision has the humanitarian component built in.
    And the danger, obviously, is that any change in that 
precarious and fragile military balance sets off a chain 
reaction that has devastating humanitarian consequences, most 
obviously a new flow of refugees or displaced people, or the 
danger of radicalization and a resurgence of some kind of 
organized ISIS/Daesh cell there.
    I think if you do build in that humanitarian component you 
would speak to the stability that is essential to try and 
preserve.
    Senator Shaheen. And how concerned are you about Turkey's 
incursion into that part of Syria when the United States' 
troops are completely gone, and potential for further 
disruption and humanitarian to further--to make a difficult 
situation even worse, if that happens?
    Mr. Miliband. I mean I think the first--the most important 
thing to say is that in thinking about any part of this 
complicated jigsaw, we recognize other parts. So, I promise I 
will come to the point of what happens if a Turkish area is 
established. But I think one has to preface that by saying 
Turkey has 3.7 million Syrian refugees in the country. The 
population is 80 million, so obviously a much richer country 
than Jordan or Lebanon. It has greater capacity to cope. It has 
done a genuinely heroic service.
    Senator Shaheen. It has, and I certainly agree with that.
    Mr. Miliband. So, I think it is important to put that on 
the record. Equally important to say that for a variety of 
reasons, when inside Turkey, the Turkish State and its 
organizations deal with all the refugees. And it's not 
international NGOs who are providing the support. And we know 
when Turkish authority is established in other parts of Syria, 
there isn't a place for the international NGOs.
    So, the most obvious and direct consequence of the 
development that you described would be that international NGOs 
would no longer be playing the role that they have been in the 
past. Certainly, we have health centers at Tell Abyad, and 
elsewhere in the northeast of the country. And they would no 
longer be there. And so that speaks to this very fragile 
political, military, but also humanitarian standoff that 
exists.
    Senator Shaheen. Thank you.
    Mr. Stiller, you talked in your opening statement about the 
role that UNHCR has been critical in playing to provide 
assistance both inside Syria and where refugees have fled. Can 
you talk about what you saw and what UNHCR sees as the most 
pressing needs of the refugees in the areas that you visited?
    Mr. Stiller. Yes. Thank you for that question.
    I mean when you go there the first thing that you 
experience is people living in extreme poverty. And these are 
not people who came there necessarily in extreme poverty. I 
mean I think it is really important to remember that nobody 
chooses to be a refugee, and a refugee is not some poor 
wandering person who decided to leave their country. Refugees 
are people who were forced to leave due to persecution. So, 
they are doctors, lawyers, farmers, cab drivers. They are 
regular people who literally had their--their house was bombed, 
and they had to leave.
    So that reality is then, you know, they are dealing with 
the fact that they can't work. They don't have the right to 
work. So, they are living in very, very tough conditions. And I 
think that is one of the biggest issues that UNHCR deals with, 
is trying to help these people make ends meet, and to be fed, 
and to be able to take care of their children, and then to 
provide access to education.
    So, all of these interconnected issues that David has been 
talking about also are, you know, the root causes are there, 
but the reality of the humanitarian issue is that these people 
are trying to survive until they can have a chance to go 
forward in their lives, and to provide for themselves. So UNHCR 
is working to provide education assistance, helping the host 
countries, as I was speaking about earlier, to provide 
education within the country, and just services to have access 
to food, and to cash assistance, to be able to pay for food, 
and to be able to pay for the rent for these places that they 
have to stay in, that are very, very, you know, tough, very 
tough conditions.
    Everywhere I have been I have seen people living in one-
room or two-room dwellings, a lot of times with no access to 
plumbing. Women living alone. Just to be a woman who is a 
refugee, living on your own is incredibly difficult and 
dangerous, and let alone what the children have to deal with. 
Just to be able to go to the bathroom, if the bathroom's not in 
your own dwelling, is a dangerous thing.
    So, I think it is providing help for the people who are 
living there in terms of just access to basic needs, but then 
helping the host countries work with programs to allow refugees 
to be able to work within those countries. That is a lot of the 
work that UNHCR is doing, so that they can figure out systems, 
so that these people can work and provide for themselves while 
they are waiting to go home.
    Senator Shaheen. Thank you very much. I am out of town, but 
your point about the importance of the U.S. support for UNHCR 
is absolutely critical, right?
    Mr. Stiller. Yes.
    Senator Shaheen. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Shaheen. Senator Romney?
    Senator Romney. I want to thank both of you for being here 
today, and making the trip to join us, and appreciate the work 
that you are doing to help alleviate human suffering.
    A question for each of you. Mr. Stiller, first of all, I am 
sure as you have gone to these various places in the world 
where refugees are located that you not that there are some 
places that are doing a better job than others. There are some 
countries that are doing a better job than others in helping 
refugees. There are some organizations that are doing a better 
job in providing relief. And I wondered whether UNHCR is 
actually, or has actually put together, if you will, almost a 
handbook or a guide as to these are the best thing you can do 
to help refugees in your country.
    Is there an effort, if you will--in the business world it 
is called best practices, where you lay out the best practices 
of one enterprise, to learn from it. Is that happening? And do 
you have a sense of the kinds of things you would want to see 
in listing these are the best things you can do to help 
refugees that come into your country?
    Mr. Stiller. Thank you for the question.
    I am not aware if there is a specific handbook of that 
type, or guide, but I refer you to my colleagues at UNHCR who I 
am sure could tell you about that.
    I mean I think in terms of my experience, one of the--
besides the things we have been talking about, I think one of 
the most important aspects of this is just how people relate to 
refugees in the world, and how they experience them. And I 
think right now my concern is that there is this 
politicization, there is this demonization from some places of 
what a refugee is, this cause for fear that refugees are 
dangerous.
    And the reality is, it is the opposite. Refugees are 
fleeing danger. And all of these people are not trying to come 
and invade our country or any other country. They are trying to 
come and just live until they can go home.
    And resettlement with refugees I think is also a big--there 
is a misunderstanding about that, of the millions and millions 
of refugees, I think it is 0.4 percent are actually resettled 
in a third country, 0.4 percent of all refugees. So, I think it 
was 56,000 worldwide last year.
    So, the reality is this small number are the most 
vulnerable. As Senator Menendez was saying and Senator Risch 
were pointing out, these people are the ones who are the 
neediest, who are going to a third country.
    I think we can help by supporting organizations like UNHCR 
that are helping the host countries. And I think it is 85 
percent of the refugees are going to these neighboring 
countries, and these countries are overwhelmed. So, I think 
that is a huge part of it. And I would say just attitudes 
towards refugees, humanizing them, seeing them as people, and 
not something to be feared.
    Senator Romney. Thank you.
    Mr. Miliband, I think we were all drawn by the comments of 
Senator Paul, who I think correctly pointed out that civil war 
is one of the great causes of humanitarian crisis throughout 
the world, and refugees being displaced from their homes. And 
he raised the prospect that perhaps we should just let these 
things run their course, and not be involved when an 
authoritarian ruler decides to abuse their people.
    Of course, the challenge with that idea is that it would 
send a very clear message to some of the world's worst actors 
that the United States of America and other nations that value 
human rights are not going to come to your aid. And it would 
only open the door and create a green light for some of the 
world's worst actors to pursue policies to oppress their 
people.
    That being said, I do wonder whether there are things that 
the West or other nations could have done throughout the 
process in Syria that would have alleviated human suffering to 
some degree. And I recognize that with conflict and war there 
was going to be some human suffering, but the extent of it in 
Syria is just overwhelming, and the humanitarian crisis that 
has occurred is unthinkable. And for those that have not been 
in the region, it is hard to communicate through words.
    As you stand back and look at what happened in Syria, or 
perhaps in other conflicts, are there lessons learned about 
what we could have done, if not to prevent civil war, are there 
things we could have done to have made the human suffering less 
intense and less extensive?
    Mr. Miliband. Thanks very much, Senator. Can I first of all 
answer your first question?
    Senator Romney. Yes. Yes.
    Mr. Miliband. Because I think your value for money point, 
your effectiveness point is incredibly important. Because the 
truth is the humanitarian enterprise has to change. 
Historically, it was keep people alive until they go home. That 
might be months or a few years. And that was relatively 
straightforward. They were in refugee camps. You gave them 
health services. You fed them, and then they went home.
    But last year less than two percent of the world's refugees 
went home. They are displaced for, on average, if they are in a 
camp, 17 years. And so, we can't just say we have to help them 
survive. They have to have the means to thrive.
    And I would really commend you, we do have a guide for what 
to do. It is called the International Rescue Committee Outcomes 
and Evidence Framework. It is online. I would urge you to type 
into Google, IRC Outcomes and Evidence Framework, and you can 
see what our field managers see. It is split down across five 
outcomes, which we think is really important to be led by what 
are you trying to achieve.
    It then documents what is the evidence that we know from 
different humanitarian settings around the world about what 
works. And just in parentheses, it is tragically difficult to 
raise money to fund evidence making. We know in development 
context, stable settings, that there has been a revolution in 
the last 20 years, largely pioneered by the Gates Foundation, 
to really focus on what works.
    There have been only about 120 evidence studies ever in the 
humanitarian sector. We have done about 40 of them, and we have 
got another 18 on the go. But you can see, if you type in IRC 
Outcomes and Evidence Framework what we know, what our field 
managers know, and a couple of things come through very 
clearly.
    One, if you give refugees cash you help them and you help 
the local population, and you diffuse tension that some people 
have referred to. And we can show you how much of a difference 
it makes.
    Secondly, our services are always open to host populations 
as well as refugees. So, you don't get Lebanese or Jordanians 
saying, ``Well, hang on. Why is there an employment program for 
them, but not for me?'' The same thing with health services.
    Thirdly, half of the world's displaced people are kids. And 
I don't think it is wrong to talk geo-strategically as well as 
morally about the utter shortsightedness of failing to educate 
generations of people who are in the midst of war, even if they 
are then living in stable settings.
    So, Lebanon and Jordan, we don't have the ``excuse'' that 
it is a war zone, so they can't get educated. The international 
community simply has not stepped up, and you will be shocked, I 
hope, that less than 2 percent of the global humanitarian 
budget goes on education, when half of the world's displaced 
people are children. So, we have huge work to do to make sure 
that the outcomes and the evidence are really the guide to 
practice.
    Sorry to go on about that. Have I got time to answer his 
next----
    The Chairman. Very briefly.
    Mr. Miliband. It is a small subject, which is how do you 
stop war, so it won't take me very long.
    [Laughter.]
    The Chairman. In a sentence.
    Mr. Miliband. In a sentence, I put one thing on the table. 
What has been missing throughout the Syria crisis, and is the 
lesson of Afghanistan, is the lesson of Iraq, is that if you 
are not clear about the political settlement that will share 
power in a credible and legitimate way, then no development 
policy, no humanitarian policy, no military strategy can ever 
have a clear destination.
    And the sentence that has not been filled in, frankly, in 
the Syrian context is there will be a transition from President 
Assad, but we have never completed that sentence, what is that 
a transition to? We know what it is a transition from, which is 
autocratic rule. It has never been clear what there is a 
transition to. And that has been the missing link tragically 
for the last 8 years.
    The Chairman. Thank you. Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman. Thank 
you both for being here today. This has been very good.
    Mr. Miliband, yesterday the State Department issued a 
statement expressing alarm over the escalation of violence in 
Idlib, in northern Hama, and they said it specifically, or 
there have been reports citing more Russian and Regime attacks 
on civilian infrastructure and humanitarian targets.
    And I guess my question to you surrounds what the tools are 
at our disposal to do something about this other than just 
raise alarm. The two words that populate talk about the U.S. 
role in the region today seem, to me, to be confusion and 
irrelevance. Confusion is obvious, given the back and forth 
nature of this Administration's policy on what kind of presence 
we will have there. But irrelevance is also an apt description, 
given the fact that, as Senator Menendez mentioned, we have 
essentially been pushed out of the diplomatic process.
    Russia, Iran, and Turkey met again in Kazakhstan on April 
25th, and once again, the United States was not there. There is 
vague talk about conversations we continue to have with Turkey 
about how to settle their claims to the region in a way that 
does not spur more violence.
    But my question to you is how did the United States get 
pushed out of this diplomatic process? And is it too late for 
us to get ourselves back in? Because it does not seem like we 
have many tools at our disposal other than complaint, if the 
Russians, the Iranians, and the Turks have committed to convene 
a process that will never, ever include the United States 
again, despite the equities that we have. Why have thousands of 
troops in Syria if somebody else is plotting the future of the 
country without us?
    Mr. Miliband. Well, thanks for a very difficult question.
    I think that I would say, first of all, in some parts of 
the country you have more equities than others, notably in the 
northeast, and you don't what to give away those equities 
cheaply. Secondly, the Russians and their friends know that 
they can't rebuild Syria alone. They are going to need the rest 
of the world to rebuild Syria, and that gives you leverage.
    Thirdly, this country is blessed to have wide-ranging 
relationships with every other country in the world. And the 
question is where Syria fits on your docket for the issues that 
you want to raise with the Russians. And if it is not in the 
top three or the top five, then it will get consequently less 
of a role.
    And you know as well, better than I do, the story of what 
happened after 2015. The Russians entered the Syrian conflict 
in September 2015. But until the U.S. shows it matters to them, 
then obviously you are not going to be playing the kind of 
central role that could be a force for stability in Syria and 
the wider region.
    Senator Murphy. I do not disagree that the United States 
will have to play a major role in reconstruction. That is hard 
to see as this Administration continues to draw down the funds 
available for it. But why on earth we have decided to sit out 
the conversations about an ultimate political settlement, when 
everyone acknowledges we will have to play some, at the very 
least, monetary role is beyond me.
    Mr. Miliband, I wanted to also take advantage of the fact 
that you are before this committee as we are about to vote on 
an effort to override a presidential veto regarding an effort, 
a bipartisan effort here in Congress, to pull the United States 
out of the disastrous civil war in Yemen.
    I just came back from the region where I received maybe the 
most disturbing briefing I have received on Yemen, in which our 
humanitarian agencies there told me that there are 250,000 
Yemenese today that are starving, and are likely beyond saving, 
are beyond help. And there is another 10 million who are risk 
of falling into that category.
    The state of the economy is in shambles. The Saudis have 
made all sort of deliberate decisions not to do things that are 
perfectly within their control to prop it up. And what was 
maybe most interesting to me was when you lay down a map of 
where these quarter million are, that are literally weeks and 
months away from death by famine, they are distributed between 
the Houthi territory and the territory controlled by the 
coalition, a coalition of which the United States is part.
    And so, this is not just about the Houthi stopping aid from 
getting in. This also about a decision by the coalition to 
allow for a campaign of starvation to exist in places that it 
controls.
    Do you share this bleak assessment of the situation on the 
ground in Yemen?
    Mr. Miliband. Yes, I do. We have about 800 International 
Rescue Committee staff on the ground in Yemen. I was in Yemen 
myself in September. The malnutrition that you speak to is 
profound. And there are two critical variables that need to be 
affected.
    One is that the war strategy of the coalition has failed. 
Eighteen thousand bombing raids have not, far from ending the 
war, they have fueled the war, and they have radicalized the 
population, and left Iran stronger, not weaker. And so, it 
seems to me the leadership role that you have been playing has 
been outstanding, and has been bipartisan, has been very, very 
welcome.
    Secondly, you are absolutely right. The Houthis have also 
got responsibilities. And we take our humanitarian opportunity 
to talk to all sides, and to press them both directly and 
indirectly about their responsibilities in respect to the 
Stockholm process, which the U.N. convened in January, and 
which has not been followed through. And I think it is that 
twin track that is absolutely essential.
    Senator Murphy. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair. And what a great 
hearing. So, I have a thank you. I have an observation for my 
committee leadership, and a question for you. So, the thank you 
is to both your organizations, the IRC and the UNHCR. You guys 
do amazing work. And I've seen it there as well as in your 
testimony here, and we really appreciate it, to the White 
Helmets.
    And I want to thank an American group, the Syrian American 
Medical Society, what SAMS has done to provide medical care. 
Our Syrian-American physicians have been heroic, and I want to 
acknowledge them.
    A comment for leadership is a frustration. We have a great 
bill, Senator Risch, your bill, the Caesar Syria Act, that I am 
a strong supporter of. That bill would have passed through the 
Senate unanimously. It passed through the House unanimously. 
So, we have the Caesar Syria Civilian Protection Act, and it 
was bundled together with another completely bipartisan bill, 
the U.S. Jordan Defense Cooperation Act, and another completely 
bipartisan bill that I was a cosponsor of, the U.S. Israel 
Security Assistance Act. And it was bundled together in Senate 
Bill 1. You mentioned that Senate Bill 1 is high centered in 
the House. Let me explain why.
    These were three great bills that were completely 
bipartisan that would have passed nearly unanimously. The 
decision was made on the floor of the Senate to add a fourth 
bill, the Combatting BDS bill, that was highly controversial. 
And it was added because of a thought that it may split 
democrats and republicans for a political purpose. It was more 
important to make a political statement and divide people about 
BDS than to pass these bills that were nearly unanimously 
supported here.
    We could have had a separate floor debate about the BDS 
bill, but instead it was put in the middle of bills that were 
completely bipartisan. This bill would have been--the Syrian 
bill that you sponsored that I strongly support would have been 
on the President's desk and would have been signed, but because 
the BDS provision was included, and the BDS provision gives 
state and local governments the ability to punish contractors 
who are peacefully supporting the BDS movement, it has been 
held unconstitutional in three different states most recently 
in the last two weeks in a case in the fifth circuit.
    So, I think it was John F. Kennedy who said the perfect is 
the enemy of the good. Well, the partisan can be the enemy of 
the good, too. So often when we have things that we all agree 
on, instead of doing that, we throw like in a Jenga game, or 
something, the one last piece on it that screws the whole thing 
up.
    And I hope that we will have a chance to pass the Syria 
Caesar Act, and I hope we will have a chance to pass the Israel 
and Jordan Cooperation Acts. When we can agree on some things 
that are really good, why muddy them up with things that are 
just--that the stunt becomes more important than the substance, 
and I find that frustrating.
    And I do not demean anybody's position on the BDS bill, but 
we could have had that as a separate debate, and discussion, 
and vote, and it would not be complicating our support for 
Syrians.
    Let me ask you a question about this. You really cued up my 
question, and it is just one issue.
    Seventeen years was the phrase you mentioned. We can think 
about refugee status as if it is something temporary. We should 
not think of it that way. In Deuteronomy, ``My father was a 
wandering Aramean, who went into Egypt and sojourned there, and 
grew into a nation great and powerful.''
    I mean refugees from the beginning of time have been with 
us. It is not an episodic emergency. But we often think about 
it as an emergency thing. So, it is going to be tents, and 
porta-potties, and water bottles, when maybe we should be 
thinking about permanent structures, and water treatment 
systems, and building schools.
    I have been with Syrian refugees in camps in Adana. I have 
been with them in urban drop-in centers in Ghazi and Turkey. I 
have been with them in sort of urban settings in Beirut. If the 
normal lot of a refugee now is more like a 17-year lot than a 
2-month lot, what should we be doing as we are providing 
financial support, as we are working with our NGOs, to take 
account of that reality of refugees?
    Because it is a different model in terms of what to fund 
and what to support if you acknowledge that 17-year reality?
    Mr. Miliband. Thanks very much.
    I think it is a great point, and just to add to the 
statistics, once you have been a refugee for 5 years, the 
average goes up to 21 years.
    Senator Kaine. Mm. Yeah.
    Mr. Miliband. So, the Syrian war has been going on for 8 
years. Most of the refugees have been refugees for at least 5 
years. So, it is long term.
    What is the answer? One, we need the humanitarian 
development systems to work together rather than separately. We 
can cut the bureaucracy, but we can actually also improve the 
outcomes. And we need to drive the short-term interventions in 
such a way that they are actually linked to the longer-term 
interventions.
    Secondly, we have got to take education seriously, because 
we are neglecting the next generation. It is an absolute no 
brainer.
    Senator Kaine. That 50 percent, 2 percent----
    Mr. Miliband. Yeah.
    Senator Kaine.----is really vivid.
    Mr. Miliband. I am glad that registered.
    Thirdly, we have to mobilize the international financial 
institutions in an even more activist way than we have so far. 
The World Bank, the IMF, but also the regional banks as well. 
Because the truth is, we are not going to get the government of 
Jordan to extend rights to work to refugees while they have 26 
percent unemployment of their own population, and they have a 
debt-to-GDP ratio of 94 percent of GDP, up from 55 percent.
    So, we need to think strategically about the way in which 
the international system accords benefit to those countries 
that are delivering on this global public good. And it has to 
be a shift of mindset, from short-term Band-Aids to long-term 
strategic intervention.
    And if you can get the education right, get the employment 
right, get the macroeconomic support right, you can create 
conditions that this does not become a toxic fight of the host 
community against the refugees, but actually become something 
that, like in Uganda, has actually been managed well, has got 
people off aid, and actually created a benefit for both sides.
    Senator Kaine. Thank you. We could talk about that for a 
long time. I appreciate it.
    Mr. Chairman. Good.
    Senator Kaine. Mr. Chair.
    The Chairman. Thank you, Senator Kaine. Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    I want to thank our witnesses for your commitment to this 
important issue. And I want to thank the representatives of the 
Syrian White Helmets for being here today. Your dedication and 
your personal sacrifices deserve our respect, and our 
admiration, and our thanks.
    National security experts from both Democrat and Republican 
administrations have recognized the strategic benefits to the 
United States of robust refugee resettlement. Unfortunately, as 
other senators have mentioned, the Trump administration is 
dismantling the U.S. refugee admissions program.
    Last year, President Trump cut our refugee admissions 
ceiling to a record low of 30,000 people. Less than a third of 
the historical average of 95,000 admissions to the United 
States. And now almost halfway through the year, only 12,000 
refugees have been welcomed into the United States, including 
fewer than 300 Syrians.
    Mr. Miliband, I could not agree more with your statement 
that the world's greatest superpower should not reject the 
world's most vulnerable in our greatest time of need.
    Three weeks ago, I introduced the GRACE Act, which would 
prevent this administration from continuing its efforts to 
slash refugee admissions. This bill would prevent any U.S. 
president from settling the annual refugee admissions level 
below 95,000 each year. We already have 12 senators who have 
co-sponsored it, and we are going to continue to build momentum 
on that.
    Mr. Stiller, Mr. Miliband has spoken eloquently on the need 
for American leadership. Can you give us your statement as to 
why you believe it is the role of the United States to play 
this role?
    Mr. Stiller. Yes. Probably less eloquently, but I will try.
    I mean I was speaking about this a little bit earlier, but 
I feel the U.S. has always been a beacon for welcoming 
refugees. We are a country of refugees. As you were pointing 
out, as the U.S. goes, so goes the world. So, this is a global 
issue, too.
    But the reality is that refugees are additive to our 
communities, to our economy. They literally contribute billions 
of dollars in tax money and revenue to the economy. There is a 
statistic, 40 percent of all Fortune 500 companies were either 
started by a refugee, or immigrant, or their children. I mean 
it is just part of the fabric of American life. And it is 
distressing to me to see the numbers go down as they have, 
because we have to lead the world in this.
    And the reality is that it is only--these people are only 
the most vulnerable, who are being admitted. And it is 0.4 
percent of all refugees in the world. So, I think it is very 
important for the U.S. to lead on this. And we have the ability 
to, and it has been proven to actually help our country.
    Senator Markey. Thank you.
    Mr. Miliband, you have been the leader on this and on 
climate change. When I was made the chair in 2007 of the select 
committee on climate change over in the House, my first witness 
in my first hearing was General Gordon Sullivan, four-star 
general, commander of the Army. And he testified that when he 
looked back at the decision which he had made in Somalia, which 
was in Mogadishu, which became to be known as Black Hawk Down, 
and he sent in our personnel, that he did not fully understand 
why we were there.
    And now testifying before my committee, on behalf of 12 
other four-star generals and admirals, he wanted to say that he 
now realizes in retrospect that it was a drought caused by 
climate change that had brought factions closer and closer 
together, fighting over limited resources, and that then the 
United States had to go in in order to try to separate them and 
to provide aid to those who had been affected.
    Could you talk about that? Talk about Syria, too, and the 
effects of climate change, and how you see that playing out, 
not just in Syria, but in other parts of the world, and what 
the responsibility of the United States has to lead on climate 
change as well.
    Mr. Miliband. Thanks very much.
    I think that the best way to understand this is that 
climate change increases resource stress, and resource stress 
is a conflict multiplier. There is a legitimate and credible 
line of argument that the drought in the northwest of Syria in 
2008 to 2011, which drove hundreds of thousands of people into 
the cities, was a contributor to the revolt. Although, I always 
remind people that in 2005 the Damascus Declaration sowed the 
seeds of the demand for accountable government before that 
drought. So, it is multi-factorial.
    But we know from our work around the world, the Lake Chad 
Basin being an obvious example, where you have got northeast 
Nigeria, Chad, Cameroon, Niger, climate change is happening. It 
is causing resource stress. Resource stress does drive 
conflict. And when it is combined with corruption, mis-
governance, poverty, religious ethnic difference, you have a 
tinderbox.
    And the truth is that we are going to be living with this 
for many decades to come, and the danger is that we neither 
mitigate not adapt ourselves to that situation.
    Senator Markey. Thank you. Thank you both so much for your 
leadership on this.
    The Chairman. Thank you, Senator Markey.
    Well, thank you all for being here today. Senator Menendez 
and I want to close up just briefly with a couple of remarks.
    Mr. Stiller, you undoubtedly were impressed with the king 
of Jordan and his wife. They come and see us, gosh, I bet, it 
seems like quarterly, but it is probably just once every six 
months, but it is really unfortunate we do not have leaders 
like that all over the Middle East. We would not have the kind 
of issues that we have.
    They do remarkable things, and particularly being hosts, 
albeit involuntarily, to the refugees, thousands and thousands 
of refugees in their country.
    Mr. Miliband, I was a little disappointed, I guess, in 
whoever it was that made the remark to you about--from Jordan, 
saying, ``Well, we kind of feel like we are on our own if the 
United States doesn't do X and Y.'' One of the great untold 
stories that most Americans have no idea is we are doing a 
tremendous amount there compared to the rest of the world.
    I mean we are the ones that are funding--are providing the 
funds so that Jordan can take care of those people in those 
refugee camps. And it is a tremendous humanitarian crisis 
there. And it is our money that is sustaining it. So, the 
Jordanians are not alone. And I can tell you the king and the 
queen do not feel that they are alone in this. Every time they 
come to see us; they are very strong in their thanks to the 
people of the United States of America for helping in those 
refugee camps.
    So, I don't know what the context of that conversation you 
had with that Jordanian person, but I can tell you that the 
king and queen, every time they come to see us, are not 
dragging their feet about how important the U.S. help is, has 
been, and will be.
    So, with that, Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    And I agree with you, the king and queen are very 
appreciative of U.S. assistance, driven to a large degree by 
the Congress, and also--but while they are so appreciative of 
our assistance, they have a bigger, huger dynamic. And so, it 
is the rest of the world community that needs to be engaged 
equally as well.
    The Chairman. I agree.
    Senator Menendez. Mr. Stiller, in your professional life 
you bring us humor, you give us insights into our lives, you 
talk about, through your medium, our humanity. And in this 
regard, I was thinking about some of the stories that you told 
briefly in your visit most recently.
    Can you share any insights, in Lebanon, for example, it is 
my sense that Hizballah and the Lebanese government are 
pressuring refugees to return back to Syria, 1.5 million. Did 
you glean from your visits there a sense of--you describe life 
as it is. Did you glean from your conversations how Syrian 
refugees see their future?
    Did you glean from your interactions a sense of what it 
would take for them to return? I am pretty much of a view of 
why they do not return right now, but there are some who 
question why they do not return.
    Can you share any insights in that regard?
    Mr. Stiller. Yes. Thank you for that.
    I feel that, almost to a person, everyone I talked to there 
desperately wanted to return, or wanted to return in a very 
real way. Whether or not the reality of that was possible is a 
different question.
    I met a woman in Tripoli who is living alone, I was talking 
about her earlier, who her husband had gone back, decided to go 
back, I think, a year or a year-and-a-half ago, and he 
disappeared. And she has not heard from him since, and she does 
not know what happened to him.
    And I think, you know, that is indicative of the reality 
for these people is that they just do not know what they are 
going back to, and they have to make this very difficult 
decision on their own. And it is a very fluid situation. So, I 
think there is a--they know that they have to make a life where 
they are, but they also have a strong desire to go back.
    You know, I find in the camps it is a little bit more--
there is less hope sometimes, because they are just in this 
sort of limbo, and they have no opportunity to work at all. I 
think people living outside of the camps are trying to find 
work where they can, but, again, they do not have the right to 
work most of the time.
    The children, I think, is the biggest issue, because those 
two young twins I talked about in the beginning, they have 
lived outside of Syria their whole lives. They actually do not 
even remember Syria, because they left when they were six 
months old.
    So I was at a settlement where a group does puppet shows 
for the kids that tell them about Syria, and tell them about 
the places in Syria through characters talking about it in a 
way that actually it is towns that we hear about, Aleppo, and 
Homs, that we hear about in a very negative way here in 
America. In this puppet show they are talking about these 
places as these wonderful places where these kids will someday 
go back to.
    The purpose of it is to educate these kids about their home 
country, so that when they someday go back they will have a 
connection with it. And I think that is the concern. I do not 
know what the reality is for a lot of these people, but I know 
that they have a strong desire to go back. But the reality 
right now is that until it can be a safer place for them to go 
back, it is hard to recommend--for anybody to recommend they go 
back. They have to make that decision on their own, which is 
really difficult.
    Senator Menendez. Thanks.
    The Chairman. Thank you so much.
    Senator Menendez. If I may, Mr. Chairman.
    The Chairman. Go ahead.
    Senator Menendez. Mr. Miliband, one last question.
    We have had violations of international law and 
humanitarian response in Syria as we have never seen maybe at 
any other time, certainly in modern history.
    Are you familiar with the Caesar Syria Civilian Protection 
Act? Would that strengthen our hand in holding accountable 
perpetrators of violence and violations of international law?
    Mr. Miliband. Thank you, Senator. And I know many of you, 
including the chairman, have shown great leadership in leading 
on this Caesar act. From our point of view, the fact that you 
have included a humanitarian carveout to make sure that 
humanitarian effort is not undermined by this is a really smart 
and good development.
    We see this as a useful intervention that could really make 
a difference, if it is part of a wider strategy, because I 
think one of you said on its own it is not a silver bullet, but 
as part of a wider package of development, diplomatic, 
political engagement, it has got a real role to play.
    If I may, just having the floor, I want to associate myself 
very strongly with what you, Mr. Chairman, said about the role 
that the king and queen of Jordan have played. The queen sits 
on our Board of Overseers, having been on our Board of 
Directors.
    The context I was asked was one in which the number of 
refugees being resettled from Jordan has dropped from 19,000, 3 
years ago, to 3,900, then to just 52 coming to the United 
States. And it was in that particular context that so many 
Jordanians feel that they are ``on their own.'' And the king 
himself, I thought in a very telling and honest way, said in a 
recent interview publicly, I am sure he said the same to you 
privately, he said publicly, ``For the first time, we can't do 
it anymore. The dam is going to burst.''
    And that really cuts to the core of both the moral issue 
that so many of you have raised, but also the geopolitical 
issue, because Jordan is such an important ally of the U.S., 
and there is both a moral reason to help the refugees, but also 
a geopolitical reason to help ensure the people who are 
trying--leaders who are trying to do the right thing have the 
international support to be able to do so.
    The Chairman. Thank you. Appreciate it.
    Thank you to both of you. Votes have gone off, and we are 
going to have to go out and cast our vote. But this will 
conclude our hearing today. And I want to thank both of you 
sincerely for taking the time out of your busy schedules to 
come here and be with us.
    We are going to keep the record open until the close of 
business on Friday. Questions can be submitted. We would ask 
the witnesses to respond to those as promptly as you can, if 
you will.
    And with that, also, I would like to note that we have had 
a request for written testimony to be entered into the record 
from David Lillie, the Executive Director of the Syrian-
American Medical Society Foundation. That will be included in 
the record.

    [The information referred to can be found at the end of 
this document:]

    The Chairman. Again, thank you all for attending today. 
This hearing is adjourned.
    [Whereupon, at 11:54 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                 Statement Submitted by Raed Al Saleh, 
                    Head of the Syrian Civil Defense

    Dear Chairman Risch, Ranking Member Menendez, and 
distinguished Members of the Committee:
    Thank you for holding this important hearing on the 
humanitarian impact of the conflict in Syria. So often, the 
conversations about the humanitarian crisis revolve around 
numbers--more than half a million dead, 12 million displaced, 
and 50 percent of the country's critical infrastructure 
destroyed.
    But for the Syrian people, especially for emergency 
responders like ourselves, the humanitarian crisis is 
represented by more than numbers: it is etched on the face of 
every civilian who lives in constant fear of bombardment, 
starvation, torture, and execution. Millions continue to endure 
the most appalling crimes. In the face of those crimes, Syrians 
still find the courage to live with meaning in a world that, 
through its inaction, has behaved as if their lives held none. 
On their behalf, I urge this Committee and the American people 
to stand with the Syrian people. I ask that the world provide 
meaningful protection for Syrian civilians.
    I recently arrived in Washington, DC. to accept the United 
States Holocaust Memorial Museum's Elie Wiesel Award on behalf 
of my fellow volunteers at the Syria Civil Defence, better 
known as the White Helmets. We do our best every day to live up 
to our motto: ``To save one life is to save all of humanity.'' 
To date, our brave volunteers have saved more than 116,000 
people.
    Yet, despite international rhetoric that the ``war is 
over'' and ``Assad has won'', the conflict in my country shows 
no sign of abating. In the past 2 months, a ``demilitarized'' 
zone in Idlib--supposedly protected by Turkey and Russia 
through an agreement struck last year--has become the latest 
target for Syrian and Russian airstrikes. These strikes have 
killed more than 190 people and displaced 200,000 more since 
February.
    The consequences of a regime assault on Idlib province are 
dire. Assad and his allies' horrific campaigns throughout the 
country displaced hundreds of thousands of civilians to Idlib, 
which is one of the last remaining areas that lie beyond the 
regime's grasp. Idlib now swells with more than 3 million 
civilians. Civilians are left with nowhere to flee. Fearsome 
memories of what our brothers and sisters endured in Aleppo and 
Ghouta hang heavy in the air as Idlib's residents await their 
fate.
    The White Helmets have not escaped targeting by the Assad 
regime and its allies--in fact, we are deliberately targeted 
because of our pledge to save any human life, regardless of 
age, creed, or political affiliation. We work under constant 
threat of retribution by the regime and the extremists it has 
empowered. Last month, two of our volunteers were killed as 
they rushed to help the injured. Just yesterday in Hama, one of 
our depots was bombed, leading to the loss of more than 
$500,000 in vehicles, ambulances, and equipment to conduct our 
life-saving work. These strikes maximize civilian suffering and 
portend even worse attacks to come.
    As the bombs continue to fall, I worry constantly about the 
volunteers and the people they are risking their lives to 
protect. If the situation escalates any further, it will become 
very difficult for us to carry out our mission effectively to 
protect civilians.
    The dangers of inaction facing a regime onslaught are 
compounded by recent decisions by the United States and its 
European partners to cut funding to civil society groups in the 
northwest, citing the presence of extremist groups. The 
decision has worked cross-purposes, leaving the very civilian 
population that rejects extremist groups and Assad alike 
instead squeezed between them, in desperate need of assistance. 
Further, hundreds of thousands of civilians live in 
displacement camps, where they are vulnerable to both 
airstrikes and extreme weather. Earlier this month when floods 
swept through the camps, destroying shelter and belongings, 
White Helmets volunteers came to help people and divert the 
floodwaters. Without international support, this work is 
unsustainable.
    In 2012, the late Mr. Elie Wiesel urged the international 
community to stop the massacre of Syrian civilians and to hold 
perpetrators of war crimes to account.
    In 2012, the death toll in Syria was 25,000. Today, the 
world has stopped counting our dead.
    The need for accountability and an end to the massacres is 
more important than ever. As Mr. Wiesel said: ``We must always 
take sides. Neutrality helps the oppressor, never the victim. 
Silence encourages the tormentor, never the tormented.'' I ask 
people around the world to take the side of the Syrian people. 
We have been failed by politicians, but we still have hope that 
ordinary people will hear our pleas.
    Chairman Risch, Ranking Member Menendez, and other Members 
of the Senate Foreign Relations Committee--thank you for 
holding this hearing. I hope that you will continue to press 
for protection of civilians and accountability for all crimes 
in Syria. It is critical that the voices of the men, women, and 
children of Syria be heard rather than ignored.
                              ----------                              


 Statement Submitted by David Lillie, Executive Director of the Syrian-
                  American Medical Society Foundation

    Chairman Risch, Ranking Member Menendez, distinguished 
members of the Committee, thank you for holding this hearing 
and providing the opportunity to highlight the significant 
humanitarian impact of the war in Syria.
    Throughout the past eight years, members of this committee 
have conducted many hearings, briefings, and meetings on the 
situation in Syria. Each time, the numbers have been shocking 
and the challenges great, but this committee and the United 
States Government have continued to provide critical 
humanitarian support to the Syrian people and to affected 
countries in the region. Despite this, and despite the overall 
decrease in the level of violence in Syria, the humanitarian 
situation continues to worsen, not improve. According to UN 
OCHA, more than 13 million Syrians are currently in need of 
humanitarian assistance, 2 million Syrian children are out of 
school, and nearly 83 percent of the population inside Syria is 
living below the poverty line. This is not to mention the 
significant needs faced by Syrian refugees in neighboring 
countries, primarily in Turkey, Lebanon, Jordan, and Iraq. 
These host governments, as well, continue to shoulder heavy 
financial and social burdens which have strained multiple 
sectors, and in many cases increased social tensions.
    Beyond these overall figures, there are even more acute 
needs and challenges. In particular, the lack of access to 
healthcare, lack of educational opportunities, and increasing 
vulnerabilities among women, children, and people with 
disabilities in Syria and neighboring countries.
    My organization, the Syrian American Medical Society 
Foundation, has been on the frontlines of providing healthcare 
in Syria since the conflict began, in addition to providing 
health services to refugees in neighboring countries. Since 
2011, we have spent more than 190 million dollars providing 
assistance, and provided more than 8 million medical and mental 
health consultations. Today, we employ nearly 2,000 medical 
staff in Northwest Syria, in addition to implementing medical 
projects in Turkey, Jordan, Lebanon, Egypt, and Iraq. This work 
has given us firsthand experience with the challenges mentioned 
above, and from these experiences we have also developed ideas 
and plans to address them.

                          ACCESS TO HEALTHCARE

    The conflict has restricted access to health care across 
the board. The systematic targeting of health facilities and 
health workers has decreased the capacity of the health system, 
while the lack of trained staff has also contributed to this 
decreased capacity. Poor economic conditions have made the 
costs of services in private facilities unsustainable for most 
families, while the dire conditions in IDP camps have further 
increased the strain on the already overwhelmed health system. 
As a result, today we are witnessing increasing rates of 
malnutrition and anemia, low levels of vaccination which have 
led to the re-emergence of deadly diseases such as polio, a 
decreased life expectancy, and decline in quality of care. In 
addition, the situation has particularly worsened for expectant 
mothers and their newborn children, with an increased infant 
mortality rate and a higher rate of complications. Further, the 
lack of access to care for specialized treatment and chronic 
illnesses remains a significant challenge. For example, in 
Northwest Syria, which has a population of more than 3 million, 
there is no treatment facility available for cancer patients. 
The only option for these patients is to apply for treatment in 
Turkey, which currently provides treatment for 30 patients per 
month. To put this in perspective, only 30 patients among a 
population of 3 million needing cancer treatment is the 
equivalent of saying that there are only 15 cancer patients in 
the entire state of Idaho. Sadly, we know this is not the case. 
What this results in are innocent patients, including women and 
children, enduring tremendous suffering and ultimately death 
due to lack of access to cancer treatment. The situation is 
similar for other chronic illnesses, as well. In the regional 
countries, access to healthcare is often a challenge of 
capacity and resources. This is particularly the case in 
Lebanon and Jordan, where the existing health systems are 
unable to cope with the large number of refugees, and are often 
only able to provide basic primary care services, if anything 
at all. This leads to similar gaps in secondary and chronic 
care, with refugees often unable to access this care.

                   LACK OF EDUCATIONAL OPPORTUNITIES

    With over two million Syrian children out of school, 
education poses both short-term and long-term challenges. I 
would like to highlight the particular gap in access to 
secondary education and specialized programs. As a medical 
organization, we have witnessed firsthand the significant 
shortage of health workers in Syria and in the neighboring 
countries. Since the conflict in Syria began, more than 70 
percent of health workers have fled the country or been killed. 
This has resulted in a significant gap in the health sector. 
Yet without training for new health workers, including doctors, 
nurses, and midwives, these gaps will only continue to grow. 
The lack of access to specialized education is a major 
inhibitor to future peace and stability in the region, as the 
population will lack the necessary skills to support itself. 
This current problem can be traced to two key impediments: lack 
of funding, and lack of cooperation from host countries. Donors 
have simply not done enough to prioritize educational 
opportunities for specialized programs and vocational training, 
particularly in the form of multi-year funding. As most of 
these programs are multi-year, it is essential that funding be 
allocated for the entire duration of study. At the same time, 
host countries such as Lebanon and Jordan could do 
significantly more to increase access to educational 
opportunities for Syrians, including granting permissions for 
study and providing scholarships at public universities.

                  VULNERABILITIES OF FEMALE POPULATION

    The Syrian conflict is first and foremost a protection 
crisis. In addition to hundreds of thousands of casualties, the 
conflict has also resulted in maimings, kidnappings, sexual and 
gender-based violence, arbitrary arrests and detention, and 
other protection concerns. Beyond the protection risks directly 
associated with conflict, such as death or serious injury, 
women are also at a higher risk of experiencing sexual and 
gender-based violence. Sexual and gender-based violence can 
happen to anyone, and while a greater degree of attention and 
response is needed to the SGBV experienced by men in Syria 
(especially in detention), women remain the most affected 
segment of the population. Notable forms of sexual and gender 
based violence in the conflict have included rape, forced and 
underage marriage, and domestic violence. In addition to SGBV, 
women also face limited economic opportunities, whose negative 
impacts disproportionately affect female-headed households. 
Women and girls are also often denied educational 
opportunities, and their freedom of movement is limited more 
than their male counterparts. More support is needed for all 
survivors of SGBV, and especially women.

                           ATTACKS ON HEALTH

    Lastly, it is important to also raise the subject of 
attacks on health, an issue of particular importance to my 
organization. According to Physicians for Human Rights, as of 
the end of 2018, nearly 900 medical professionals have been 
killed in Syria, making the country the most dangerous place on 
earth for health providers. In addition, the Syrian Network for 
Human Rights reports that there are currently 3,000 
humanitarian workers currently detained by the Syrian 
government. Hospitals have been regularly targeted by 
airstrikes, artillery shelling, and even chemical weapons. 
Between 2014 and 2018, one third of all the facilities attacked 
were supported by SAMS. From January 2017 to December 2018, 
SAMS documented 243 attacks on health. That's 243 instances 
where the lives of medical staff and their patients were 
targeted, a clear violation of international humanitarian law 
and the basic rules of war. Just this past weekend, two 
hospitals in the Northwest of Syria were targeted by shelling 
and forced to close. We cannot continue to let these heinous 
attacks go unanswered. The UN Security Council spoke with one 
voice when it unanimously passed Resolution 2286 in May 2016, 
condemning attacks on health and calling for accountability for 
perpetrators. Sadly, however, after three years this resolution 
has not only failed to stop attacks on health, but actually 
witnessed an increase in the number and rate of attacks. The 
status quo is not acceptable. In addition, the Syrian 
government and its allies currently maintain a policy that all 
humanitarian workers who perform work in non-government 
controlled areas are formally classified as terrorists. Such a 
classification is not only in direct violation of international 
humanitarian law, but also puts the very lives of these 
individuals and their families at risk. We have seen the 
consequences of this policy in ``reconciled'' areas such as 
Daraa and East Ghouta, where humanitarian workers have been 
systematically tracked down, arrested, detained, and even 
killed for their work. All because they provided life-saving 
care to innocent civilians in need, all in full accordance with 
IHL, and often with the support and funding of the US 
government and UN agencies. Such clear violations of human 
rights cannot, and should not, be tolerated by this committee.

                            RECOMMENDATIONS

    While the humanitarian needs remain significant, there are 
steps which this committee and the US government can take to 
improve the humanitarian situation.
    Increase funding for health programs. Additional funding 
for health programs in Syria and regional countries is an 
effective means by which to address the current gaps in access 
to health. In Syria, funds for specialized care, primary 
health, and mental health are especially needed. Regionally, 
there is a need for more funds for chronic illnesses, persons 
with disabilities, and secondary care. Multi-sector programs, 
such as the consortium in NW Syria funded by OFDA, are ideal 
models, as they increase the efficiency, transparency, and 
overall impact of the funding.
    Provide greater funds for education, as well as engage with 
regional governments to grant more access to educational 
opportunities. Increasing US support for educational 
opportunities, particularly in specialized fields like medicine 
and engineering, will help train the future leaders of Syria, 
while also building the capacity of the Syrian population in 
regional countries. This support should also include increased 
collaboration with regional universities and Syrian diaspora 
networks to increase the long-term impact of the programs. In 
addition, this committee and the broader US government should 
use its influence with the host countries to ask for an 
increase in permissions for Syrian students to pursue higher 
education and vocational training.
    Continue to prioritize the protection of vulnerable 
populations, including women and girls, both diplomatically and 
programatically. The root cause of the conflict's protection 
issues is ultimately the conflict itself. The US should 
continue to support negotiations that reduce the overall level 
of conflict in Syria, including ceasefires and de-escalation 
agreements. On a programmatic level, an increase in US support 
for protection initiatives, such as child protection 
programming, gender based violence prevention and response 
programming, psychosocial support initiatives and de-mining 
efforts will help countless of women, girls, men, and boys live 
safer, more dignified lives.
    Increase efforts towards accountability for attacks on 
health and protection of healthworkers. The lack of meaningful 
accountability for attacks on healthcare has led to impunity. 
The US has the opportunity to change this trend by working with 
like-minded countries to adopt tangible, meaningful 
accountability measures for parties found to have intentionally 
targeted health facilities or health workers. The US should 
also support and encourage the UN-led deconfliction mechanism 
in Syria, which enables humanitarian organizations to formally 
declare the coordinates of their facilities to the parties to 
the conflict, in order to prevent them from being targeted. The 
subsequent investigations which occur if one of these 
deconflicted facilities is attacked should be conducted in a 
timely, transparent manner in order to hold the perpetrators 
accountable and to deter future attacks. Finally, the US should 
make the status of healthworkers in Syria a top priority of its 
Syria priority, and utilize all diplomatic tools to ensure that 
healthworkers are no longer targeted or criminalized for their 
profession.

                                  [all]
</pre></body></html>
